Department of Homeland Security
   Ofﬁce of Inspector General


            DHS Conference Spending 

             Practices and Oversight 





OIG-10-19                                November 2009
                                                             Office a/Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                       NOV 16 2009


                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report is in response to a request from Representative Bennie G. Thompson,
Chairman of the House Committee on Homeland Security. It addresses the strengths and
weaknesses of the department's policies, oversight, and reporting of conference planning
and related expenditures. It is based on interviews with employees and officials of
relevant agencies, components, and offices; direct observations; and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all who contributed to the preparation ofthis report.

                                    £~K~
                                    Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review .............................................................................................................
                                                                                                              
                 ...6 


      Department Needs Clear and Consistent Conference Planning Guidanc
e ...................7
 

         Policies Do Not Identify Responsibilities or Authorities Clearly ....
..................      
               ...7 

         Recommendation...................................................................................................9
 

         Management Comments and OIG Analysis ........................................................
                 ..9 


             DHS Has Inconsistent Conference Terminology and Guidance .........................11
 

             Recommendation.................................................................................................13
 

             Management Comments and OIG Analysis ....................................................... 
                .14 


             Some Components Have Policy Instructions and Clear Procedures That
               Should be Leveraged........................................................................................16 

             Recommendation................................................................................................
                                                                                                          
                 .17 

             Management Comments and OIG Analysis ....................................................... 
                 .18 


      Conference Data Were Unreliable and Unverifiable..................................................18
 

         Accountability and Tracking Need Improvement ..............................................  
                 .23 

         Recommendations ..............................................................................................
                                                                                                      
                 .25 

         Management Comments and OIG Analysis ........................................................26
 


      Conference Costs Do Not Have Sufficient Supporting Documentation ....................27
 

         Recommendations ..............................................................................................
                                                                                                      
                 .37 

         Management Comments and OIG Analysis ....................................................... 
                 .38 


      DHS Travel Expenditures Were Not Supported Consistently or in Compliance
       With Applicable Regulations ..................................................................................39 

         Recommendations ..............................................................................................
                                                                                                      
                 .43 

         Management Comments and OIG Analysis ........................................................43
 


      Departmental Coordination of Sponsored Conferences Would Facilitate
       Efficiencies..............................................................................................................44
 

         Recommendations ...............................................................................................46
 

         Management Comments and OIG Analysis .......................................................          
                .46 


      Conclusion ..................................................................................................................4
7



Appendices
     Appendix A: Purpose, Scope, and Methodology....................................................... 49 

     Appendix B: Management Comments to the Draft Report ....................................... 51 

     Appendix C: Congressman Thompson’s Request Letter........................................... 56 

Table of Contents/Abbreviations


  Appendix D:         Descriptions of Eleven Sample Conferences Reviewed ...................... 57 

  Appendix E:         Total Amount Spent, by Component and by Fiscal Year..................... 63 

  Appendix F:         FY 2007 Conferences ........................................................................... 66 

  Appendix G:         Major Contributors to this Report ........................................................ 67 

  Appendix H:         Report Distribution............................................................................... 68 



Tables
  Table 1:     DHS Reported Conference Activity and Expenditures FYs 2005–2007....... 3 

  Table 2:     Eleven DHS Conferences Examined in Further Detail ................................. 5 

  Table 3:     Discrepancies in Conference Costs Reported by Components.................... 22 

  Table 4:     Discrepancies in Conference Attendance Reported by Components .......... 23 

  Table 5:     Component Response Times for Requested Documentation ...................... 29 

  Table 6:     Component-Reported Expenditures for Eleven Sample Conferences......... 31 

  Table 7:     Summary of Travel Documentation Requested and Received .................... 39 



Figures
  Figure 1: Breakdown of DHS Reported Conference Expenditures FYs 2005–

             2007............................................................................................................. 6 

  Figure 2: Discrepancies In DHS Conference Spending Data Reported and 

             Obtained.................................................................................................... 21 



Attachments
  Attachment 1: FY 2007 Conferences Data Are Provided in a Separate 

           Attachment to this Report Because of Size 



Abbreviations
  AToN                 Aids to Navigation 

  CAO                  Chief Administrative Officer 

  CFR                  Code of Federal Regulations 

  CONUS                continental United States
     

  DEP OPS              Departmental Operations 

  DHS                  Department of Homeland Security 

  FTR                  Federal Travel Regulations 

  FEMA                 Federal Emergency Management Agency 

  GAO                  Government Accountability Office 

  GSA                  General Services Administration 

Table of Contents/Abbreviations

  ICE          U.S. Immigration and Customs Enforcement
  M&IE         meals and incidental expenses
  MD           Management Directive
  Management   Directorate for Management
  NDMS         National Disaster Medical System
  OCFO         Office of Chief Financial Officer
  OCHCO        Office of Chief Human Capital Officer
  OIG          Office of Inspector General
  RISC         Regional Interagency Steering Committee
  S&T          Directorate for Science and Technology
  USCG         United States Coast Guard
Executive Summary
        The Department of Homeland Security conducts conferences for a variety
        of purposes, including employee and stakeholder training, information
        sharing, and mission support. During FYs 2005–2007, the department
        reportedly spent approximately $110 million on conference-related
        activities—spending approximately $60 million in direct costs and an
        additional $50 million identified as salary expenses for employees
        attending the conference. At the request of Representative Bennie G.
        Thompson, Chairman of the House Committee on Homeland Security, we
        reviewed the department’s conference spending practices and evaluated its
        policies, oversight, and reporting of conference planning and related
        expenditures.

        Specifically, we assessed the total amount spent by the department on
        producing or facilitating conferences, retreats, and other offsite activities
        for FYs 2005, 2006, and 2007. For each component, we further analyzed
        budgets, funds spent on conferences, the number and locations of
        conferences, full-time equivalent staff allotments, and employee
        attendance at conferences. From this analysis and comparison, we
        selected five components and examined 11 conferences in more detail. In
        addition, we obtained a full listing of each conference that received
        funding or staffing support from the department during FY 2007.

        Although we did not review all Department of Homeland Security
        components, this report seeks to identify areas in which the department
        can leverage best practices and generate new efficiencies.

        The department has made progress in developing department-wide
        conference planning policies. However, work is still needed to provide
        clear, consistent, and adequate guidance and instructions. For example,
        conference cost data did not contain sufficient supporting documentation,
        and were unreliable, unverifiable, and provided little assurance that all
        conferences and related costs were tracked and accounted for properly. In
        addition, the department needs coordination across components to ensure
        that duplication of efforts related to sponsoring conferences is minimized.

        We are making 12 recommendations to assist the Directorate for
        Management in improving oversight and reporting of conference planning
        activities across the department. In response to our report, Management
        has proposed plans and taken action that, once fully implemented, will
        enhance its oversight and reporting capabilities. The department
        concurred with all 12 recommendations.




                 DHS Conference Spending Practices and Oversight 


                                     Page 1 

Background

                 Federal departments and agencies sponsor or send employees to thousands
                 of conferences each year. Estimates indicate that in FYs 2000–2006,
                 federal spending associated with such conferences amounted to more than
                 $2 billion. 1 In his request letter, Chairman Thompson said an audit by the
                 Department of Justice’s Office of the Inspector General revealed troubling
                 spending patterns by Department of Justice officials and employees on
                 food, travel, resources, and other items purchased to conduct or facilitate
                 various conferences, retreats, and other off-site activities. 2 Chairman
                 Thompson requested that we conduct a similar examination of conference
                 spending at the Department of Homeland Security (DHS). 3

                 A conference, as defined by the Federal Travel Regulations (FTR), 41
                 C.F.R. § 300-3.1, is “a meeting, retreat, seminar, symposium, or event that
                 involves attendee travel. The term 'conference' also applies to training
                 activities that are considered to be conferences under 5 C.F.R. § 410.404.”
                 It is typically a prearranged event with designated or registered
                 participants, a substantive published agenda, and scheduled speakers or
                 discussion panels on a particular topic. In many cases, sponsoring
                 conferences and funding attendee travel are important and necessary to
                 fulfilling an agency’s mission. Conferences facilitate outreach efforts,
                 enable staff to obtain job-related training, and provide a way to
                 communicate with stakeholders and other professionals in associated
                 fields.

                 DHS conducts conferences for a variety of purposes, including employee
                 and stakeholder training, information sharing, and mission support. DHS’
                 overall mission involves securing the country, preserving freedoms, and
                 preparing for and responding to all hazards and disasters. It accomplishes
                 this mission through many components, each having supporting missions
                 and goals. These components share the department’s broad responsibility
                 for domestic security. In addition, they operate in a decentralized
                 environment, often with business processes, programs, policies, and
                 systems that the components brought from legacy departments and
                 agencies.

                 DHS and its components have more than 216,000 employees located in
                 the District of Columbia, all 50 states, and 80 countries around the world.


1
  Office of Senator Tom Coburn, M.D., For the Farmers or For Fun: USDA Spends Over $90 Million in
 

Conference Costs, May 2008.

2
  Department of Justice Office of Inspector General, Audit Report 07-42: Department of Justice Conference 

Expenditures, September 2007. 

3
  The Chairman’s request letter is Appendix C. 



                            DHS’ Conference Spending Practices and Oversight

                                                 Page 2
                  These employees may attend conferences in local working areas or travel
                  to other locations. As shown in Table 1, during FYs 2005–2007, DHS
                  sent employees to conferences across the nation and around the world in
                  43,989 instances, which include individuals who attended more than one
                  conference as well as many who attended the same conferences. Data
                  reported by the DHS Office of the Chief Financial Officer (OCFO)
                  suggest that the department spent approximately $110 million on 8,359
                  conferences during FYs 2005–2007.

Table 1: DHS Reported Conference Activity and Expenditures FYs 2005–2007
                                                                       Percent of
 Fiscal      Conferences          Amount          DHS Budget                              Conference Travel
                                                                      DHS Enacted
 Year         Reported             Spent           (Enacted)                                 Instances *
                                                                        Budget
  2005              702          $ 9 million        $35 billion            .03%                    2,887
  2006            3,024         $50 million         $38 billion            .13%                   20,298
  2007            4,633         $51 million         $40 billion            .13%                   20,804
  Total           8,359        $110 million        $113 billion            .10%                   43,989
Source: OIG analysis based on data provided by OCFO, August 2008.

NOTE: Because of variation in reporting quality across years and between components, these numbers may or may
not represent an increase in conference activity and could indicate an increase in reporting.
* Number of times DHS sent an employee to a conference.

                  When compared to the annual enacted budgets of DHS, the amount spent
                  on conferences represents less than 1% of available funds each year.
                  However, these small ratios represent millions of dollars where
                  management vulnerabilities can exist and an area where benefits and
                  outcomes are generally neither evaluated nor measured. They also
                  demonstrate a financial and programmatic area where DHS must exercise
                  due diligence to ensure that funding conference-related activities is an
                  appropriate means for accomplishing department-wide objectives.




                             DHS’ Conference Spending Practices and Oversight 


                                                    Page 3 

        Directorate for Management Responsibilities
                 The mission of the Directorate for Management (Management) is to
                 ensure that departmental employees have well-defined responsibilities and
                 that managers and their employees have effective means for
                 communicating with one another, with other governmental and
                 nongovernmental entities, and with the public. Through Secretarial
                 delegation, the Under Secretary for Management has departmental
                 responsibility for budget, appropriations, expenditures of funds,
                 accounting and finance, procurement, and human resources. 4 In addition,
                 the Under Secretary oversees information technology and communications
                 systems, facilities, property, equipment, and other material resources; as
                 well as identification and tracking of performance measures related to
                 those responsibilities.

                 Through secretarial delegation, the Under Secretary for Management has
                 responsibility for and the oversight of the functions, personnel, assets, and
                 liabilities of entities within DHS. In addition, the Under Secretary has
                 responsibility for and oversight of the functions and duties of the Chief
                 Financial Officer, the Chief Procurement Officer, the Chief Information
                 Officer, the Chief Human Capital Officer, the Chief of Administrative
                 Services, and the Director of Strategic Initiatives. 5 As provided by the
                 Chief Financial Officer's Act, the Chief Financial Officer also reports
                 directly to the Secretary regarding financial management matters. 6

        DHS Components and Conferences Reviewed
                 In response to Chairman Thompson’s request, we evaluated a variety of
                 conference data and policies to determine the nature and extent of
                 department-wide policies and oversight of conferences and related travel.
                 We also evaluated conference spending data from Management for all
                 DHS components for FYs 2005, 2006, and 2007.

                 We further analyzed conference spending practices in five DHS
                 components to obtain a perspective on individual components’
                 conference-related activities and how they interrelate with Management.
                 The five components included the Federal Emergency Management
                 Agency (FEMA), the Directorate for Science and Technology (S&T), U.S.
                 Immigration and Customs Enforcement (ICE), the United States Coast


4
  Department of Homeland Security Delegation 0201.1: Delegation to the Under Secretary for 

Management; November 10, 2003. 

5
  Department of Homeland Security Delegation 0201.1: Delegation to the Under Secretary for 

Management; November 10, 2003. 

6
  31 U.S.C. § 902. 



                           DHS’ Conference Spending Practices and Oversight

                                                Page 4
                 Guard (USCG), and Departmental Operations in the Directorate for
                 Management (DEP OPS). 7 From these five components, we examined 11
                 conferences, which included the most expensive within the continental
                 United States (in-CONUS) and the most expensive non-CONUS
                 conference for each of the five components held during FYs 2005–2007.
                 In addition, we examined one FY 2009 conference in Hawaii, attended by
                 19 S&T personnel. Table 2 lists these conferences; detailed descriptions
                 are in Appendix C.

Table 2: Eleven DHS Conferences Examined in Further Detail

                                                                                            In/Non-
    Component    FY               Conference Name                 Conference Location
                                                                                            CONUS
                       National Disaster Medical System
                2006                                              Reno, NV                  In-CONUS
                       (NDMS) Conference
    FEMA
                       Regional Interagency Steering
                2007                                              Honolulu, HI            Non-CONUS
                       Committee (RISC) Meeting
                       Detention Management Control Program
                2006                                              Batavia, NY               In-CONUS
                       Training
    ICE
                                                                  Orchard District,
                2007   Regional (Asia) Attaché Conference                                 Non-CONUS
                                                                  Singapore
                       West Coast Aids to Navigation (AToN)
                2006                                              Everett, WA               In-CONUS
                       Conference
    USCG
                       District 17 Commanding Officers’
                2006                                              Juneau, AK              Non-CONUS
                       Conference
                2005   2005 National BioWatch Conference         Washington, DC             In-CONUS
                       International Underwater Tunnel
                2007                                              London, England         Non-CONUS
    S&T                Protection
                       2008 Asia Pacific Homeland Security
                2009                                              Honolulu, HI            Non-CONUS
                       Summit and Exposition
                       FY2007 Chief Administrative Officer’s
                2007                                              Washington, DC            In-CONUS
                       (CAO) Forum
    DEP OPS
                       29th International Data Protection and
                2007                                              Montreal, Canada        Non-CONUS
                       Privacy Commissioner’s Conference


          Cost Breakdown
                 Although DHS conference spending is limited by the availability of funds
                 for such purpose, and participation is generally determined by whether the
                 conference is a mission-related or job-related requirement, no specified
                 limits exist—in legislation, regulation, or policy—on how much DHS or
                 its components can spend on conference support or participation. We
                 reviewed costs for the conferences by categories such as general support
                 (i.e., facilities, audiovisual equipment, materials, and supplies), employee

7
 Departmental Operations consists of the Office of the Secretary & Executive Management, Office of the
Under Secretary for Management, OCFO, and Office of the Chief Information Officer.


                           DHS’ Conference Spending Practices and Oversight

                                                Page 5
          salaries, travel expenses, and other costs incurred. Figure 1 depicts these
          expenditures for FYs 2005–2007.


          Figure 1: Breakdown of DHS Reported Conference Expenditures FYs 2005–2007

                                    Total expenditure: $110 million



                                    Other Costs                General Support
 

                                     $7 million                  $11 million
 

                                        6%                          10%
 





             Travel
           $42 million                                                                 Salaries
              38%                                                                     $50 million
                                                                                         46%




                          Source: OIG analysis based on data provided by OCFO, August 2008.




Results of Review
          Although conferences and related travel might be important to enhancing
          federal government operations, DHS must provide assurance that it is a
          responsible steward of public funds. Many policies already exist within
          DHS and throughout the federal government that demonstrate the need for
          prudent judgment when funding conferences and determining employee
          travel and attendance. Although we did not review all DHS components,
          this report seeks to identify areas in which Management can leverage best
          practices that will allow the department to generate new efficiencies,
          institute a coordinated “program to improve efficiency and streamline




                    DHS’ Conference Spending Practices and Oversight 


                                         Page 6 

                decision-making,” and ensure that conferences and travel are appropriately
                coordinated and conducted solely for mission-critical purposes. 8

        Department Needs Clear and Consistent Conference Planning
        Guidance
                Conference planning is multifaceted. It involves travel, acquisitions,
                budget, ethics, and appropriations laws and regulations. As a result, DHS
                staff requires comprehensive instructions and detailed, useful information
                on proper procedures for conference planning.

                In October 2008, OCFO issued a department-wide conference planning
                policy as part of its Travel Handbook within the Financial Management
                Policy Manual. The handbook delineates DHS-wide policy regarding
                employee travel expenses and conference planning, and provides official
                travel policies and general travel guidance to employees of DHS and its
                components. The conference planning policy was based on regulations
                and guidelines outlined in the FTR.

                Although the conference planning document is intended to represent DHS-
                wide policy and reflects a progressive effort, it still defers to components
                with stricter directives to continue following their existing guidance.
                Similarly, an undated internal directive, Management Directive 3160:
                Attendance at Meetings and Conferences (MD 3160), also permits a
                decentralized conference planning process. As there is no unified or
                consolidated set of rules under which DHS components are to operate,
                confusion exists among departmental staff. Consequently, the
                departmental conference planning policy does not identify responsibilities
                or authorities clearly; define terminology and guidance consistently; nor
                clarify policy instructions and procedures adequately.

                         Policies Do Not Identify Responsibilities or Authorities Clearly

                         Prior to October 2008, DHS had no formal department-wide
                         conference planning policies, and it was unclear who was
                         responsible for developing and communicating DHS-wide policies.
                         Within various departmental documents, multiple Management
                         entities were cited as having responsibilities associated with
                         conference planning. This conflicting information often caused
                         staff to rely on inappropriate policies and irrelevant points of
                         contact.


8
 Department of Homeland Security Press Release: “Secretary Napolitano Rolls Out DHS Efficiency
Review Initiative,” March 27, 2009.


                           DHS’ Conference Spending Practices and Oversight

                                               Page 7
                         For FYs 2005-2007, we determined that only two Management
                         documents dealt specifically with conference planning and
                         attendance policies. The first, issued by the Office of the Chief
                         Human Capital Officer (OCHCO), is MD 3160. This directive
                         establishes DHS policy regarding attendance at meetings and
                         conferences, and applies to all DHS organizations, employees, and
                         contractors who provide services at DHS’ expense. According to
                         the directive, until such time that OCHCO establishes a permanent,
                         department-wide policy regarding attendance at meetings and
                         conferences, all DHS organizational elements may continue to
                         enforce their existing policies and procedures.

                         The second document, issued by DHS’ Office of General Counsel
                         and coordinated with the department’s Office of Ethics, was a
                         memorandum dated March 4, 2006, and entitled Conferences. It
                         applies to all DHS offices and components with contracts serviced
                         by the Office of Procurement Operations and is “intended to
                         illuminate some distinctions between permissible and
                         impermissible methods to conduct conferences.” It includes a
                         caveat that the memorandum is not intended to be comprehensive
                         and generally recommends that agency conference planners seek
                         additional legal advice on issues not specifically addressed. On
                         March 20, 2009, the Office of General Counsel issued an updated
                         and superseding Conferences memorandum; however, specifically
                         it directs department conference planners to seek additional legal
                         advice from appropriations and fiscal law attorneys on related
                         issues not specifically addressed in the memorandum.

                         On September 14, 2006, the Deputy Chief Financial Officer stated
                         that the policies governing employee travel are the responsibility
                         of the Chief Financial Officer and referred to more comprehensive
                         policy and guidance on travel and conference attendance under
                         development. 9 That guidance was issued in October 2008 as the
                         Travel Handbook in the Financial Management Policy Manual.

                         Conflicting information about conference policies makes it
                         difficult to determine who or what has responsibility for setting
                         policy. MD 3160 places responsibility for setting policy on
                         training, conference attendance, and planning on OCHCO; the


9
 Statement by Eugene Schied, DHS Deputy Chief Financial Officer, before the Senate Committee on
Homeland Security and Governmental Affairs Subcommittee on Federal Financial Management,
Government Information, and International Security Hearing: DHS’ Conference Spending;
September 14, 2006



                           DHS’ Conference Spending Practices and Oversight

                                               Page 8
             Office of General Counsel’s 2006 Conferences memorandum
             directed employees to the Offices of Ethics and General Counsel;
             and congressional testimony refers to OCFO as the responsible
             entity. Several officials we interviewed, whose duties involve
             developing component policy, did not receive DHS-wide guidance
             on conference planning policy or travel and did not know that
             MD 3160 or Office of General Counsel’s 2006 Conferences
             memorandum existed. These officials either referred to
             component-specific policies or followed the FTR.

             MD 3160 also states that the Office of International Affairs at DHS
             must clear attendance at conferences outside of the United States.
             However, when reviewing our sample of international conferences,
             component officials did not know of the requirement or said that
             they were not required to clear or coordinate attendance at
             international conferences with the Office of International Affairs.
             In addition, international affairs officials said there is no clear
             policy on its office’s role in coordinating the DHS presence
             overseas and were unaware that the new Travel Handbook within
             the Financial Management Policy Manual contained a section on
             conference planning and international travel.

             It is unclear to what extent these policies and guidance have been
             distributed or announced to DHS headquarters, component, and
             contractor personnel. Little knowledge or alignment of practices
             with policies establishing guidelines for conference planning or
             spending at the department level or identification of responsible
             policy-makers exists. As a result, significant challenges confront
             adherence to and monitoring of departmental guidelines and
             federal regulations.

Recommendation
We recommend that the Under Secretary for Management:

          Recommendation #1: Assume oversight responsibility for
          department-wide conference planning activities.

Management Comments and OIG Analysis
          We evaluated management’s written comments and have made
          changes to the report where we deemed appropriate. In general,
          Management agreed with all recommendations in the report. A
          summary of management’s written response to the report
          recommendations and our analysis of the response follows each


               DHS’ Conference Spending Practices and Oversight

                                   Page 9
recommendation. A copy of Management’s response, in its entirety, is
included as Appendix B.

Management Response: Management agreed with
Recommendation 1. Management responded that DHS leads a unified
national effort to secure America—this requires a unified department
and an integrated approach across our varying operations. DHS’
Secretary continues to prioritize unifying the department and creating
a common culture: one enterprise, a shared vision, with integrated
results-based operations.

In March 2009, the Secretary launched a department-wide efficiency
review to trim costs, streamline operations, eliminate duplication, and
better manage resources across the department. This effort includes
more than 20 initiatives that will increase efficiency, leverage
economies of scale, create a culture of responsibility and fiscal
discipline, and save taxpayers millions of dollars. Elements of the
efficiency program, the travel and use of government facilities
initiatives, have already generated department-wide policies over the
conference planning process.

There are various cross-functional aspects of conferences, such as
planning, ethics, attendance, travel, record keeping, and other legal and
management aspects, which have been covered by different
authoritative sources at the department. Management agrees to bring
DHS stakeholders together, review best practices, and develop
department-wide clear, consistent, and authoritative guidance on the
multiple aspects of conferences, along with a well-rounded and
comprehensive definition of a conference.

Management further responded that work is under way as a part of the
efficiency initiatives on use of government facilities and travel, and
will serve as a basis for building comprehensive DHS policy on
conferences. DHS established a Conference and Event Planning
Services working group to investigate potential methods of achieving
savings in this area. This working group has surveyed components to
gather requirements for events across the department and is conducting
market and industry research with internal government event planners.
The working group is also developing a resource package with low or
no cost alternatives for employees to use while planning conferences
and events.

OIG Analysis: In response to Recommendations 1, 2, and 3,
Management provided one response to address these
recommendations. We consider Management’s proposed actions
responsive to Recommendation 1, which is resolved and open. This

     DHS’ Conference Spending Practices and Oversight

                         Page 10
recommendation will remain open pending our receipt of an official
department-wide policy, which assigns oversight responsibility and
policy-making authority for department and component conference
activities to a central designated entity. This policy should include a
reporting process to facilitate this oversight, and clearly outline
responsibilities, policies, and procedures. Further, all department
employees should receive this policy, particularly those responsible for
organizing or authorizing conference activities.


DHS Has Inconsistent Conference Terminology and Guidance

Although the DHS mission often justifies staff presence at
conferences, DHS does not have a department-wide definition of what
constitutes a conference. The distinction between a conference,
training, and a routine meeting can affect the justification requirements
of an event, how it is funded, as well as who can attend. In the
guidance used by DHS components, the definition of a conference
varies significantly. For example:

           The FTR defines a conference as a meeting, retreat,
           seminar, symposium, or event that involves attendee travel
           The FTR also applies the term to training activities that are
           considered to be conferences under 5 CFR § 410.404.

           MD 3160 does not provide a distinction between a
           conference and a meeting, but defines both as a gathering
           of individuals on DHS-related subjects held outside of DHS
           and within or outside the United States.

           The two Conferences memoranda of the Office of General
           Counsel distinguish conferences from routine meetings by
           defining the latter as being held to discuss day-to-day
           operations of the government, while a formal conference
           typically involves matters of topical interest to multiple
           agencies and/or nongovernmental participants and might
           include registration, a substantive published agenda, and
           scheduled speakers.

           The October 2008 DHS Travel Handbook conference
           planning policy provides no definition of a conference or
           any distinction among conferences, meetings, or training.

In 2006, Senator Tom Coburn, then Chairman of the Subcommittee on
Federal Financial Management, Government Information, and
International Security; U.S. Senate Committee on Homeland Security

     DHS’ Conference Spending Practices and Oversight

                         Page 11
                      and Governmental Affairs, sent a letter to all federal agencies
                      requesting information about their conference spending which
                      included a definition of conferences. 10 When responding to this
                      congressional request, OCFO chose to develop yet another definition
                      for conferences by reviewing definitions provided in Senator Coburn's
                      letter, the FTR, and the Department of Defense Joint Federal Travel
                      Regulation. 11 The resulting OCFO definition stated:

                                   “A pre-arranged seminar, annual meeting, forum, or
                                   symposium held at a non-DHS facility that involves the
                                   attendance of DHS and/or non-DHS employees who travel
                                   and/or participate for the provision of training, or the
                                   exchange of information, during which speakers make
                                   presentations on various topics.”

                      While the OCFO guidance presented in response to a congressional
                      request might have been communicated to staff involved in the data
                      request, it was not communicated throughout the department or to the
                      component program office levels where conference expenditure
                      information is often maintained. Program offices used previous
                      definitions or their own professional judgment with respect to what
                      they believed constituted a conference. For example, USCG
                      supplemented the OCFO definition with further guidance to its staff,
                      stating, “a conference is a pre-arranged meeting/expo with a formal
                      agenda that is open for public discussion of a particular topic,
                      provision of training or the exchange of information.”

                      Because of those varying definitions, OCFO staff initially received
                      more than 20,000 component conference submissions for FY 2006.
                      One official involved in data collection explained that many
                      components submitted information on all activities or meetings that
                      they thought might meet whatever definition of “conference” they
                      were using. The official explained it was very difficult to centralize
                      this information and that, even within a component, different offices
                      had different definitions and reported their spending accordingly.
                      Once verified and examined to ensure a degree of uniformity and
                      eliminating events that did not fit OCFO’s definition, the number of
                      FY 2006 conferences was reduced to 3,024.

10
   Conference definition, provided by Senator Coburn, is a “meeting for consultation, education or
discussion that includes non-agency participants, not held entirely at an agency facility.”
11
   The Department of Defense Joint Federal Travel Regulations, Appendix R, defines a conference as "A
meeting, retreat, seminar, symposium, or event that involves attendee travel. Also applies to training
activities that are considered to be conferences under 5 C.F.R. 410.404. ” In an annotation, the JFTR
specifies that the definition does not include "regularly scheduled courses of instruction conducted at a
[government] or commercial training facility."


                            DHS’ Conference Spending Practices and Oversight

                                                  Page 12
                    Of the five components, whose policies we examined in further detail,
                    only DEP OPS had a policy during FYs 2005–2007 that included a
                    definition of a conference following the one in MD 3160. FEMA and
                    S&T did not offer any information disclosing how they defined a
                    conference. Both ICE and USCG, however, were able to provide
                    policies issued in 2008 that include detailed definitions of a
                    conference, although each was different from the guidance above.

                              The current ICE Conference Planning Procedure defines a
                              conference as “a meeting, retreat, seminar, symposium,
                              congressional event, convention, workshop, selected training,
                              or other event that has a published agenda, scheduled
                              speakers or discussions, and frequently involves attendee
                              travel. All conferences are to cover only official government
                              business.” 12

                              The current USCG Financial Resource Management Manual
                              defines a conference as “gatherings that are not routine in
                              nature and that are intended to cover topical matters of
                              general interest that might appeal to governmental and
                              nongovernmental participants.” 13 The manual also refers
                              staff to definitions found in the FTR and the Joint Federal
                              Travel Regulations.

                    Given the importance of conferences to help achieve and further the
                    DHS mission, DHS should adopt and use department-wide one
                    definition. The same should apply to differentiating training and
                    meetings. Having consistent terminology and guidance would reduce
                    confusion; provide better use of staff resources; improve record
                    keeping, reporting, and monitoring; and facilitate the oversight of
                    department-wide, conference-related expenditures.

        Recommendation
        We recommend that the Under Secretary for Management:

                    Recommendation #2: Develop and adopt a common department-
                    wide definition for what constitutes a conference. The definition



12
   ICE Management Procedures (MAP) #304:107:001: Conference Planning Procedure; April 24, 2008; §
2.2: Definitions–Conference. 

13
   USCG Commandant Instruction (COMDTINST) M7100.3D: Financial Resource Management Manual;
 

October 3, 2008; § 5.K.11.b: Internal Coast Guard Business Meetings and Conferences, p. 5-53. 



                         DHS’ Conference Spending Practices and Oversight 


                                             Page 13 

                        should ensure that a distinction is made between a conference, retreat,
                        seminar, symposium, workshop, training, and routine meeting.

           Management Comments and OIG Analysis
                        Management Response: Management agreed with
                        Recommendation 2. Management responded that it will bring DHS
                        stakeholders together, review best practices, and develop department-
                        wide clear, consistent, and authoritative guidance on the multiple
                        aspects of conferences, along with a well rounded and comprehensive
                        definition of a conference.

                        OIG Analysis: We consider Management’s proposed actions
                        responsive to Recommendation 2, which is resolved and open. This
                        recommendation will remain open pending our receipt of an official
                        department-wide policy that identifies a single conference definition
                        for the department and all components, and clearly distinguishes
                        between a conference, retreat, seminar, symposium, workshop,
                        training, and routine meeting.


                        Inadequate Policy Instructions and Procedures Exist

                        According to the FTR, an agency is responsible for developing and
                        establishing internal policies to ensure that, while planning a
                        conference, it minimizes all costs, maximizes the use of government
                        facilities, identifies cost-reduction opportunities, and ensures that
                        conference planners do not misuse conference planning benefits. 14 As
                        an aid in planning and conducting conferences, government-wide and
                        department-specific rules, regulations, and guidelines are to be used.
                        However, DHS component policies vary, which presents challenges in
                        applying adequate procedures and practices across the department.
                        Further, disparities in the existence, maintenance, and rigor of some
                        component policies highlight that DHS, as a whole, operates under
                        multiple rules.

                        The MD 3160 language is vague, general, and does not provide
                        adequate guidance to DHS staff for conference planning. Many DHS
                        officials we interviewed did not know that this directive exists,
                        suggesting some components may not be aware of DHS-wide policy.
                        As a result, many components continue to use legacy policies,
                        government-wide policies, guidance issued by other federal agencies,
                        or from a combination of sources. Of the five components we

14
     41 CFR § 301-74.1: What policies must we follow in planning a conference?


                              DHS’ Conference Spending Practices and Oversight

                                                  Page 14
reviewed, only DEP OPS, USCG, and FEMA had component-specific
conference planning policies available during FYs 2005–2007.

          DEP OPS was the only component of the five that knew
          about MD 3160 and used the document for guidance. It
          also referred to the 2006 Office of General Counsel’s
          Conferences memorandum, but even together these
          documents do not provide staff with adequate instructions
          or comprehensive guidance on matters related to
          conference planning.

          USCG follows its Financial Resource Management
          Manual, issued in 2004 and revised in October 2008; the
          Joint Federal Travel Regulations for conference planning
          and attendance; and its internal supplement to the FTR for
          travel guidance.

          FEMA also relies on the FTR and on other General
          Services Administration (GSA) regulations when planning
          conferences. FEMA has a 1988 internal Travel
          Regulations Manual guidance document that contains a
          section on conference planning. FEMA officials said they
          also use bulletins to alert employees to changes in the FTR,
          but were unaware of the MD 3160 policy.

          ICE issued two conference planning documents in April
          2008. The Conference Planning Policy and a Conference
          Planning Procedure document outline the responsibilities
          of every officer level in the conference planning process.
          The document includes attachments showing sample
          request-approval forms for having a conference, a
          worksheet for estimating facility costs, a procurement
          request template, and a sample conference announcement.

          S&T relies on the FTR and the Federal Acquisition
          Regulations when planning conferences. S&T officials
          expressed no knowledge of DHS policies and said that they
          did not have their own component-specific policies.

   In addition, limited department-wide procedures exist for
   determining or minimizing the number of employees attending
   conferences or for standards justifying attendance. Based on our
   review of the five components, employees obtain permission from
   their supervisors to attend a conference and, when funding is
   available, they are permitted to incur related travel costs.
   However, the components do not appear to have specific standards

    DHS’ Conference Spending Practices and Oversight

                        Page 15
                           for determining whether an employee’s attendance is important
                           and necessary or whether it would be more prudent to send only a
                           few employees, who could in turn brief others.

                           MD 3160 advises DHS components to keep attendance at
                           conferences to a prudent level by only allowing an employee to
                           attend a conference when the employee is delivering a paper or
                           serving as a participant; discussing issues important to the
                           employee’s job and attendance would benefit the employee’s
                           subsequent job performance, or when substantial professional
                           advantage beneficial to DHS is expected. 15 However, this broad
                           language would seem to endorse the attendance of most employees
                           at any conference related to DHS’ mission. MD 3160 does not
                           provide adequate limits or direction on who should be permitted to
                           attend a conference and for what purpose.

                           Consequently, when DHS components have up-to-date internal
                           policies that supplement federal regulations, very specific guidance
                           can be provided to staff, but differences still exist. For example,
                           while policy states that USCG must keep records of cost-reduction
                           efforts, the ICE conference planning procedure is more specific
                           and states that any action costing more than $2,500 requires at least
                           three quotes. Components also review and approve their
                           procurement agreements for conferences in different ways. USCG
                           employs a six-level chain of command process to ensure that
                           actions are legitimate and legal before entering into procurement
                           agreements, while ICE routes procurement requests through its
                           Office of the Principal Legal Advisor for review.

                           These inconsistencies, coupled with the need for overall
                           department-wide guidance, suggest that components abide by
                           different rules. Although MD 3160 refers components to their
                           legacy policies, policy maintenance varies by component. In
                           addition, components without legacy policies do not have clear
                           instructions on conference planning and attendance.

                           Some Components Have Policy Instructions and Clear
                           Procedures That Should be Leveraged

                           However, some policies have very specific language and provide
                           definitions that could help prevent the confusion that often
                           surrounds conference planning and attendance rules. In addition,
                           some components have very clear processes and procedures

15
     DHS Management Directive 3160: Attendance at Meetings and Conferences; undated.


                             DHS’ Conference Spending Practices and Oversight

                                                 Page 16
             regarding conference planning. For example, USCG kept its
             purchase orders, travel authorizations, and cost information readily
             available for review of the FY 2006 Commanding Officers’
             Conference, suggesting an organized and accessible record-
             keeping system.

             In another example, the entire bidding process that led the Office
             of the Chief Administrative Officer (CAO) to choose its contractor
             for an annual conference was documented in an organized, readily
             available contract file and included detailed cost and attendee
             information. Also, USCG and ICE had review processes and
             responsibilities clearly defined, reducing the likelihood of
             confusion and noncompliance with applicable policy. Although
             these policies and practices provide examples of sound business
             and management practices that could be leveraged throughout
             DHS, no coordinated effort by the department has been instituted
             to consolidate these practices.

             The October 2008 department-wide conference planning policy
             within the Financial Management Policy Manual addresses
             conference planning and attendance, but does not provide a
             comprehensive department-wide supplement to federal regulations.
             Instead, it refers components to their legacy policies. In addition,
             the conference planning policy does not address managing
             conference attendance at either the component or the program
             office level.

             In leveraging sound business practices from all components, DHS
             has an opportunity to strengthen its conference attendance and
             planning policies and to create efficiencies in this area. By
             unifying, streamlining, and effectively communicating available
             guidance to DHS employees and conference planners, all
             components would benefit, allowing DHS to become a better
             steward of public funding.

Recommendation
We recommend that the Under Secretary for Management:

          Recommendation #3: Revise conference planning and attendance
          policies by leveraging and consolidating existing best practices and
          component legacy policies to develop and communicate a single,
          department-wide policy that provides clear and comprehensive
          guidance to all DHS components, and contractor staff.



               DHS’ Conference Spending Practices and Oversight

                                   Page 17
Management Comments and OIG Analysis
        Management Response: Management agreed with
        Recommendation 3. Management responded that work is under way
        as a part of the efficiency initiatives on use of government facilities
        and travel, and will serve as a basis for building comprehensive DHS
        policy on conferences. DHS established a Conference and Event
        Planning Services working group to investigate potential methods of
        achieving savings in this area. This working group has surveyed
        components to gather requirements for events across the department
        and is conducting market and industry research with internal
        government event planners. The working group is also developing a
        resource package with low or no cost alternatives for employees to use
        while planning conferences and events.

        OIG Analysis: We consider Management’s proposed actions
        responsive to Recommendation 3, which is resolved and open. This
        recommendation will remain open pending our receipt of a single,
        department-wide policy addressing the approval process for hosting
        and attending conferences, as well as the reporting and documentation
        requirements necessary for such events.


Conference Data Were Unreliable and Unverifiable
        DHS operates in a decentralized financial management environment,
        which creates difficulties in accurately tracking departmental funds
        spent on conferences and related travel. Information related to
        conferences sponsored by DHS and its components is maintained in
        many different offices within each component. In addition, conference
        planning and attendance often include planning, procurement, and
        travel of employees. Therefore, while conference planning data may
        reside in program or budget offices; documentation supporting
        procuring facilities and other services may be maintained in
        contracting offices; financial transaction data may be handled by
        accounting; staff expenses may be tracked in human resources; and
        travel costs and related documents are handled within component
        travel systems.

           Discrepancies Exist in Cost Data

           Federal regulations provide guidance on the use of federal funds
           for conferences with the objective of ensuring that conferences are
           managed in a cost effective manner. During our review, DHS
           officials were unable to produce precise and consistent numbers on
           conference spending. For example, related conference expenses in

             DHS’ Conference Spending Practices and Oversight

                                 Page 18
the financial management systems throughout the department are
not differentiated from other costs incurred. Therefore, direct
reporting from the program offices and manual review of
documentation were necessary in each component. Often,
information was not maintained in a manner to facilitate proper
examination, tracking of actual conference costs, or identification
of a sponsoring entity.

As a result, most responses we received from components
contained missing data and had discrepancies. For FY 2007
conferences, sponsorship information was often incomplete or
inaccurate, as indicated in Attachment 1. Because of the size of
Attachment 1, it is provided as a separate attachment to this report.
In essence, the data received for FYs 2005–2007 were unreliable,
unverifiable, and contained little assurance that components
properly tracked or accounted for all conferences and related costs.

Conference planners frequently did not take into consideration all
of the information required to estimate potential costs or account
for actual costs. In particular, the costs incurred during the
planning and preparation stages and other staff-related costs such
as salaries, travel, and incidentals were overestimated in some
cases and underestimated in others. According to OCFO data, in
FYs 2005–2007, DHS spent $110 million on conferences. OCFO
compiled conference information from components and separated
costs into categories such as general support, programming,
salaries, travel, and other costs. Appendix D shows the component
totals of expenditures reported in these categories. Because of
different definitions of what constitutes a conference, along with
inconsistencies in the nature and extent of documentation
maintained by the components, OCFO faced significant challenges
in compiling data on conferences sponsored by DHS or attended
by DHS employees.

When reviewing previous DHS congressional submissions and
data, we determined there were discrepancies in conference costs
and attendance counts. Although unintentional, this provides an
inaccurate account of actual total costs incurred, the size of the
event, and expenses per attendee, and does not provide for
transparency or accountability in conference activities throughout
the department. For example:




 DHS’ Conference Spending Practices and Oversight 


                     Page 19 

                                 FY 2005—Conference spending previously reported to
                                 Congress totaled $7,064,774. 16 Although OCFO and
                                 components were unable to provide us with complete and
                                 reliable information for FY 2005, our analysis of cost data
                                 for FY 2005 conferences totaled $9,377,829.

                                 FY 2006—Partial amount initially reported to Congress of
                                 $15,370,713 represented estimated travel. 17 As Figure 2
                                 shows, DHS subsequently revised its report to Congress to
                                 include additional conference-related expenses, which
                                 totaled $50,410,028. This revised amount also was
                                 provided to us.

                                 FY 2007—DHS reported to Congress spending
                                 $33,865,220 for the first eight months of the fiscal year
                                 (October 2006–May 2007). Although OCFO provided
                                 information to us for the remaining four months (June–
                                 September 2007) totaling an additional $17,266,049,
                                 OCFO staff said that this amount received from
                                 components had not been verified or vetted by OCFO.
                                 Attachment 1, provided as a separate document to this
                                 report, indicates FY 2007 conferences that have not been
                                 verified or vetted for accuracy by OCFO.




16
  The Office of Senator Tom Coburn, R-Oklahoma, Conference spending by agency, 02/16/06. 

17
  Statement by Eugene Schied, DHS Deputy Chief Financial Officer, before the Senate Committee on 

Homeland Security and Governmental Affairs Subcommittee on Federal Financial Management, 

Government Information, and International Security Hearing: DHS Conference Spending;
 

September 14, 2006. 



                           DHS’ Conference Spending Practices and Oversight

                                               Page 20
Figure 2: Discrepancies in DHS Conference Spending Data Reported and Obtained




                                                                                            $50.41                 $51.13


                                      60

                                                                                   $50.41
                                      50
         Expenditures (in millions)




                                      40


                                      30                         $9.38


                                      20


                                      10
                                                     $7.06                $15.37                      $33.87

                                        0
                                                    2005                 2006                        2007



                                                                  Fiscal year

                                      Reported to Congress         Updated report to Congress                  Obtained by OIG

Source: OIG analysis based on data provided by OCFO, August 2008.

NOTE: Because of variation in reporting quality over years and among components, these numbers may or may not
represent an increase in conference activity and could indicate an increase in reporting.


                                             Similar differences existed when reviewing the 11 conferences in
                                             detail. During FYs 2005–2007, OCFO issued data calls to DHS
                                             components requesting information on all conferences sponsored
                                             or attended. However, the amounts reported by components to
                                             OCFO for the 11 conferences were different from the amounts we
                                             obtained directly from the components for the same conferences.
                                             As shown in Table 3, eight of the 11 conferences we reviewed
                                             reported different conference costs, some substantively.




                                                DHS’ Conference Spending Practices and Oversight 


                                                                    Page 21 

Table 3: Discrepancies in Conference Costs Reported by Components

                                                         Reported to          Reported to
Component                   Conference                     OCFO                  OIG              Discrepancy
                  2006 NDMS                             $      3,392,575    $      3,347,952     $ (44,623)
     FEMA
                  Region IX RISC                        $         66,247    $        176,094     $     109,847
                  Detention Management                  $        724,596    $        146,647     $ (577,949)
     ICE
                  Asia Attaché                          $         82,358    $        113,184     $       30,826
                  D13 AToN                              $      1,458,383    $         22,934     $ (1,435,449)
     USCG
                  D17 Commanding Officers’              $         96,570    $        113,401     $       16,831
                  2005 BioWatch                         $        503,000    $        503,000     $           —
     S&T          Underwater Tunnel                     $        104,500    $        100,000     $      (4,500)
                  Asia Pacific Expo*                                  n/a   $         93,036                 n/a
                  FY2007 CAO Forum                      $        300,000    $        300,000     $           —
     DEP OPS
                  29th Privacy Commissioners’           $         16,903    $         16,354     $          549
Source: OIG analysis based on data provided by OCFO, August 2008, as well as data received directly from
components, October 2008 to March 2009.
*This conference occurred after the components provided these figures to the OCFO



                            Discrepancies Also Exist in Attendance Counts

                            According to the FTR, each agency must establish policies that
                            reduce the overall cost of conference attendance. These policies
                            must limit employee attendance to a minimum number of
                            attendees, determined by a senior official, necessary to accomplish
                            the agency’s mission; and provide for the consideration of travel
                            expenses when selecting attendees. 18

                            According to MD 3160, a need also exists to ensure that attendance
                            at meetings and conferences is held to a prudent level; however,
                            this guidance is subjective and no standardized department-wide
                            method is used to minimize attendance. We reviewed data from
                            OCFO and information directly from components with respect to
                            the number of employees who attended the 11 conferences. Again,
                            discrepancies existed in attendance totals and we were unable to
                            validate the accuracy of the information. Because of an
                            inconsistent departmental definition, numbers could include only
                            the sponsoring program office’s employees, component
                            employees, or all DHS employees who attended. Without using
                            consistent methodology in maintaining attendance records and a

18
  41 CFR § 301-74.18: What policies and procedures must we establish to govern the selection of
conference attendees?


                              DHS’ Conference Spending Practices and Oversight

                                                     Page 22
                           final reconciliation of conference details, Management cannot
                           effectively provide oversight and monitor policy compliance.

                           As indicated in Table 4, seven of the 11 conferences provided
                           different data on attendance.

Table 4: Discrepancies in Conference Attendance Reported by Components
                                                                                                              Reported
                                                           Reported        Reported        Discrepancy        Difference
  Component                  Conference                    to OCFO          to OIG              (#)              (%)
                    2006 NDMS                                    842             831                 11              (1%)
 FEMA
                    Region IX RISC                                13               32                19               40%
                    Detention Management                         105               61                44             (58%)
 ICE
                    Asia Attaché                                  17               17                  0               0%
                    D13 AToN                                      22             175                153               13%
 USCG
                    D17 Commanding Officers’                      32               65                33               51%
                    2005 BioWatch                                   2              16                14               13%
 S&T                Underwater Tunnel                               3               3                  0               0%
                    Asia Pacific Expo*                            n/a              18                n/a                n/a
                    FY2007 CAO Forum                             635             639                   4           (0.2%)
 DEP OPS
                    29th Privacy Commissioners’                    5                5                  0               0%
 Source: OIG analysis based on data provided by OCFO, August 2008, as well as data received directly from components,
 October 2008 to March 2009.

 *This conference occurred after the components provided these figures to OCFO



                           Accountability and Tracking Need Improvement

                           The general inability of DHS to produce precise and consistent
                           information provides little assurance that all conferences and costs
                           were accounted for properly. We determined that DHS did not
                           have a uniform reporting system to capture conference costs or a
                           process to easily track or extract all costs associated with
                           conferences.

                           A DHS official said there is no reason to track conference
                           expenditures because there are no spending restrictions. Another
                           said there was no benefit to DHS components tracking conference
                           expenditures, other than data call reporting to Congress. However,
                           Management and components have a fiduciary and strategic
                           responsibility for establishing and maintaining internal controls to
                           achieve effective and efficient operations and reliable financial
                           reporting. Conferences represent a significant area of activity in



                             DHS’ Conference Spending Practices and Oversight

                                                    Page 23
                         DHS and should be managed with the same diligence as other
                         program activities.

                         Reconciliations or comparisons of data and periodic assessments
                         should be integrated into Management’s and components’
                         continuous monitoring of internal controls. 19 By not having such
                         internal controls, staff relied on ad hoc system queries and manual
                         analysis to produce requested information. The data provided to us
                         by Management and components on conferences sponsored and
                         funds spent were questionable in both accuracy and completeness.
                         DHS was unable to determine why variances occurred, but
                         explained that a need for compatible information and accounting
                         systems, coupled with human error and multiple field and program
                         offices, are major reasons why numbers vary.

                         Currently, DHS components are planning and sponsoring
                         conferences without any consistent approval or tracking processes.
                         When combined with inconsistent conference costs and attendance
                         numbers, DHS needs to develop better management controls to
                         ensure that conferences are funded and attended only for mission-
                         critical purposes and that costs are minimized to the greatest extent
                         possible. In assessing, tracking, and monitoring conferences, DHS
                         must use innovative tools, methods, and systems to ensure
                         accountability and cost minimization across the department. By
                         promoting cooperation among its components and analysis of
                         lessons learned internally and by other federal entities,
                         Management has the opportunity to develop a systematic,
                         disciplined approach to managing conference-related costs.

                         Exploring options such as centralizing conference planning
                         functions can add value to the process by circumventing known
                         risks and by maximizing benefits attained department-wide. For
                         example, the U.S. Department of Energy employs a departmental
                         Conference Management System, which can obtain advance
                         approvals of conference details and is a centralized monitoring and
                         reporting tool for management officials and Congress. Reportedly,
                         the system provides accessible, retrievable, and reliable data on the
                         number of conferences funded, associated costs, and a valuable
                         foundation for comprehensive conference budgeting and
                         planning. 20 DHS must develop processes and tools to increase the
                         transparency of conference spending, which will help identify and


19
   Office of Management and Budget Circular No. A-123, Revised: Management’s Responsibility for 

Internal Control, § II.E.: Standards—Monitoring, December 21, 2004. 

20
   Department of Energy Order 110.3A: Conference Management; January 25, 2007. 



                           DHS’ Conference Spending Practices and Oversight

                                               Page 24
             eliminate non-mission-critical travel for employees and promote
             better accountability of funds used to sponsor conferences.

             Comprehensive cost and planning information should be collected
             to allow managers to make informed decisions regarding the
             reasonableness or necessity of proposed DHS conference
             expenditures. A singular, defined practice of capturing and
             reporting all conferences costs incurred is needed to ensure that
             data are reliable and verifiable. In addition, quality control
             procedures should be created to prevent discrepancies and
             variances in reported conference totals.

Recommendations
We recommend that the Under Secretary for Management:

          Recommendation #4: Establish a department-wide methodology to
          uniformly and consistently capture and report on conference related
          planning and cost information.

          Recommendation #5: Develop a plan to approve, track, report, and
          conduct periodic reviews of department-wide conference related costs
          and attendance to increase accountability and transparency of DHS
          conference activities.

          Recommendation #6: Conduct a cost-benefit analysis to determine
          the value of implementing a department-wide conference management
          information system to facilitate tracking, monitoring, and reporting
          costs, attendance, and mission achievement.




               DHS’ Conference Spending Practices and Oversight 


                                   Page 25 

Management Comments and OIG Analysis
       Management Response: Management responded that it agreed with
       Recommendation 4. Management said that consistently reported
       conference information and periodic reviews of conference activities
       are important factors in establishing proper controls for accountability
       and transparency of DHS conference activities. DHS directives on
       travel and use of government facilities include specific guidance on the
       various aspects of conference planning, travel, performing a cost
       benefit analysis, and ensuring adequate controls and approval
       processes are in place. As part of establishing comprehensive
       guidance on conference activities, which will cover definitions,
       planning, ethics, travel, record keeping, and other legal and
       management aspects, DHS will also implement an oversight function
       to provide assurance that conference guidance is successfully and
       consistently implemented in DHS components.

       In addition, Management responded that long-term DHS-wide
       financial systems consolidation efforts could be leveraged to support
       accurate tracking of conference related costs. Including conference
       data elements as part of financial and acquisition systems will provide
       a centralized data reporting mechanism and preclude the need for a
       separate conference management information system.

       OIG Analysis: In response to Recommendations 4, 5, and 6,
       Management provided one response to address these
       recommendations. We consider Management’s proposed actions
       responsive to Recommendation 4, which is resolved and open. This
       recommendation will remain open pending our receipt of an official
       department-wide policy, which provides clear guidance to the
       department and all components on the reporting and documentation
       requirements necessary for hosting, co-hosting, and attending
       conferences as defined by the department. This guidance should
       include direction on the quality control of data submissions.

       Management Response: Management responded that it agreed with
       Recommendation 5. As part of establishing comprehensive guidance
       on conference activities, which will cover definitions, planning, ethics,
       travel, record keeping, and other legal and management aspects, DHS
       will also implement an oversight function to provide assurance that
       conference guidance is successfully and consistently implemented in
       DHS components.

       OIG Analysis: We consider Management’s proposed actions
       responsive to Recommendation 5, which is resolved and open. This
       recommendation will remain open pending our receipt of an official

            DHS’ Conference Spending Practices and Oversight

                                Page 26
                       department-wide policy, which clearly outlines the roles and
                       responsibilities for periodic reporting of conference activity to a
                       central designated entity.

                       Management Response: Management responded that it agreed with
                       Recommendation 6. Management said that long-term DHS-wide
                       financial systems consolidation efforts could be leveraged to support
                       accurate tracking of conference related costs. Including conference
                       data elements as part of financial and acquisition systems will provide
                       a centralized data reporting mechanism and preclude the need for a
                       separate conference management information system.

                       OIG Analysis: We consider Management’s proposed actions
                       responsive to Recommendation 6, which is resolved and open. This
                       recommendation will remain open pending our receipt of cost and
                       benefit results, a specific implementation plan, or a feasibility study
                       for including conference data elements into DHS-wide financial and
                       acquisition tracking systems. The option taken needs to identify the
                       types of data captured across the department.


           Conference Costs Do Not Have Sufficient Supporting 

           Documentation 

                   According to the DHS Records Management Handbook, all government
                   employees and contractors are required to make and preserve records
                   containing adequate and proper documentation of the organization,
                   functions, policies, decisions, procedures, and essential transactions of the
                   agency. Further, DHS requires that records be properly stored, preserved,
                   and available for retrieval, and disposed of only in accordance with
                   National Archives and Records Administration-approved records control
                   schedules. 21 Maintaining adequate and proper documentation supports
                   business processes, and maintaining sufficient working files provides a
                   complete understanding of the entire transaction cycle.

                   Most documentation developed to support conference planning activities
                   is financial. Whether it is procurement for such items as securing a
                   facility, arranging for exhibition materials, ordering food and beverage
                   service, printing programs; or incurring expenses such as travel
                   arrangements, lodging, shipping of materials to the site, and mailing of
                   invitations or flyers; there is a fiscal effect on program, office, component,
                   and department budgets. There can also be an effect on the department’s


21
     DHS Records Management Handbook, v.2; 0550 Publication, Chapter 1, § 3(c): Policy; January 2005.


                              DHS’ Conference Spending Practices and Oversight 


                                                  Page 27 

ability to demonstrate that particular performance measures have been
met, through conference activities, when no records of the achievement
exist.

During our review, DHS had no efficient means of locating applicable
documents or information systems that could be easily queried to obtain
detailed financial or other supporting information about conferences. As a
result, components were slow to respond and did not uniformly document
or categorize expenditures. We also reviewed reported costs, cost
comparisons for locations, and the use of external event planners for the
11 conferences. This information revealed that site comparisons were
frequently not performed or documented, and cost-benefit factors often
were not considered when choosing external event planners over internal
staff to carry out conference planning and organizing.

       Conference Information Was Not Retrievable in a Timely
       Manner and Descriptions Varied

       We requested basic information on each of the 11 conferences such
       as the date, location, number of attendees, sponsorship, and
       whether the conference was held annually. Although DHS
       components were able to provide this information, and the
       descriptions of each conference appeared related to programmatic
       goals, responses were not timely and descriptions varied.

       Also, there was no central point within DHS or the five
       components we reviewed responsible for maintaining all
       documents or reporting on all costs elements of conference
       spending. As a result, components were slow to respond to our
       information requests, provided incomplete information, and had
       trouble identifying the appropriate individuals or offices within the
       component that would have knowledge of the requested
       information. As Table 5 indicates, response times and amount of
       requested documentation received varied by component.




         DHS’ Conference Spending Practices and Oversight 


                             Page 28 

Table 5: Component Response Times for Requested Documentation




Source: OIG analysis based on data provided directly by components, October 2008 to March 2009.


                            For two of the five components, it was difficult to determine which
                            program office sponsored the conference or to identify the correct
                            points of contact. For example, FEMA officials could not locate
                            any documentation or knowledgeable internal points of contact for
                            the National Disaster Medical System (NDMS) conference that
                            FEMA sponsored in 2006. As a result of the transitioning of
                            NDMS from FEMA to the U.S. Department of Health and Human
                            Services in January 2007, the need for more institutional
                            knowledge resulted in poor accessibility and limited preservation
                            of pertinent conference records.

                            Reported Costs Were Not Comprehensive

                            When planning and sponsoring conferences, comprehensive data
                            and cost information must be collected and maintained to allow
                            managers to make informed decisions, to ensure that costs are
                            reasonable and necessary, and to prevent departmental
                            vulnerabilities to excessive charges. Maintaining comprehensive
                            and organized documentation has the benefit of eliminating
                            disputes on decisions reached, work authorized, and agreed-upon
                            costs. It also reduces the need for frenzied data compilation when
                            requested by departmental or congressional officials. In addition,

                              DHS’ Conference Spending Practices and Oversight

                                                    Page 29
organized record-keeping often makes up for institutional
knowledge when program staff moves on, and allows for readily
retrievable records whenever necessary.

For the conferences we reviewed, there was little documentation
associated with planning and insufficient supporting
documentation for costs. We were unable to assess steps taken for
decisions made and actions taken to minimize costs. Although all
components reviewed indicated that all funds used were from
assigned program budgets, and that there was no reprogramming of
funds to support these conferences, it is incumbent upon the
components to ensure that funds used to sponsor or attend
conferences are expended in accordance with relevant
appropriations law and organizational mission. In cases where
document support existed, it was not readily available for
examination and staff was initially unable to locate detailed
information on the selected conferences.

In addition, costs were reported inconsistently as estimates,
projections, awarded, budgeted, or actual expenses. Supporting
documents and invoices frequently did not equate with the total
reported costs spent on the conference. For instance, S&T reported
that for the BioWatch conference, they spent approximately
$190,000 on conference costs, excluding travel and salary
expenses. However, a task order was issued for $426,637. We
requested the related invoices from S&T, and they provided a set
of cumulative invoices from one contractor, which included one
invoice related to the conference indicating that it was the final
invoice for the conference totaling $288,888 cumulative to date.

We have no information to confirm whether the remaining funds
were spent and what they were spent on. In addition, it appears
that components have underestimated and underreported
conference costs. For example, invoices retrieved from the NDMS
contractor and subcontractor were significantly more than what
was reported to us by FEMA, a difference of approximately
$580,000. Another underestimate of costs appears in the S&T
Asia Pacific Homeland Security Summit and Exposition, where the
component estimated $62,500 in conference expenses, excluding
travel and salary, and we received copies of invoices for
approximately $85,000.

Other DHS components did not include similar expenses within
conference cost categories. ICE’s Detention Management Control
Program and the Regional Asia Attaché conferences included some
travel costs, such as taxis, rental cars, and hotels in the “Other

 DHS’ Conference Spending Practices and Oversight

                     Page 30
                            Costs” category, and not within the travel expense category. This
                            initially caused an overstatement of other costs for which we
                            expected to see related documentation or invoices to explain such
                            expenses. However, after further examination, these other
                            expenses were determined to be associated with employee travel
                            reimbursements. For other conferences, some expenses such as
                            salaries or travel were not included in the total costs. Table 6
                            shows the breakdown of costs for the 11 conferences, as provided
                            by components or determined from invoices.

Table 6: Component-Reported Expenditures for Eleven Sample Conferences
                                          General                                       Other
 Comp.            Conference              Support       Salaries        Travel          Costs         Total
           2006 NDMS                  $ 999,434     $ 1,277,359     $ 1,071,159              —    $ 3,347,952
 FEMA
           Region IX RISC             $ 100,000     $    26,500     $    39,250     $    10,344   $ 176,094
           Detention Management              —      $    44,137     $    91,116     $    11,393   $ 146,646
     ICE
           Asia Attaché                      —      $    33,550     $    54,620     $    25,013   $ 113,184
           D13 AToN                          —               —      $    12,233     $    10,700   $    22,933
 USCG      D17 Commanding
                                      $     7,094   $      69,556   $     36,750             —    $   113,400
           Officers’
           2005 BioWatch              $ 97,000                 —    $    311,800    $    94,200   $   503,000
     S&T   Underwater Tunnel          $ 99,999                 —              —              —    $    99,999
           Asia Pacific Expo          $ 85,835                 —              —     $     7,200   $    93,035
           FY2007 CAO Forum           $ 300,000                —              —              —    $   300,000
     DEP
     OPS   29th Privacy
           Commissioners’                      —               —    $      8,307    $     8,046   $    16,354
Source: OIG analysis based on data provided directly by components, October 2008 to March 2009.


                            We also examined available documentation for food and
                            beverages, audiovisual and equipment, registration fees, site cost
                            comparisons, and use of external event planners.

                            Food and Beverages

                            According to the Government Accountability Office (GAO), as a
                            general rule, appropriated
                            funds are not available to           Food and Beverages
                            provide free food to
                            government employees at their   CAO Forum............ $137,700
                            official duty stations unless   BioWatch .................. $42,638
                            specifically authorized by      NDMS........................ $41,250
                            statute. 22 However, GAO has    D17............................... $2,478
                            determined that there are       RISC............................ $2,315
                            certain exceptions to this

22
     GAO, Principles of Federal Appropriations Law (Red Book), pg. 4-103.


                               DHS’ Conference Spending Practices and Oversight

                                                    Page 31
                         rule. 23 One such exception is provided for in section 301-74.11 of
                         the FTR, which allows agencies hosting conferences to provide
                         light refreshments to agency employees in a travel status. 24

                         GAO contemplates other exceptions in its Red Book, as well as in
                         numerous Comptroller General opinions. However, a succinct
                         summary of those rules, as they relate to DHS conference planners,
                         is provided in both the 2006 and 2009 DHS Office of General
                         Counsel’s Conferences memoranda. The memorandum provides
                         guidance for conference planners to use when determining whether
                         appropriated funds may be used to provide food at training
                         conferences, as well as formal conferences sponsored by DHS,
                         other federal agencies, or non-federal entities.

                         We reviewed the conferences to determine food and beverage
                         expenses and determined that five conferences incurred costs for
                         food and beverages totaling $226,381. Because of insufficient
                         supporting documentation, it was difficult to determine what the
                         food and beverage expense included and whether it would be
                         considered light refreshments or a meal. In only one case were we
                         able to verify that the cost of the meal was in line with the
                         applicable regulations and with the per diem rate for that location.

                         Audiovisual Support

                         Similar to other conference costs, agencies have considerable
                         discretion regarding their spending on audiovisual support for
                         conferences, including equipment rental and direct labor associated
                         with equipment setup and operation. Furthermore, the Acquisition
                         Oversight Program Guidebook
                         attached to MD 0784:                           Audiovisual
                         Acquisition Oversight Program
                                                               NDMS...................... $113,118
                         directs acquisition personnel to
                         obtain supplies and services at       CAO Forum.............. $54,871
                         fair and reasonable prices.           BioWatch .................. $22,472
                         However, neither fair nor             Asia Pacific Expo ..... $13,242
                         reasonable are explicitly defined     RISC............................ $2,173
                         in the directive.




23
  GAO, Red Book, pp. 4-103 through 4-119. 

24
  41 CFR § 301-74.11: May we provide light refreshments at an official conference? GAO, Red Book, pp. 

4-110 through 4-111.
 



                           DHS’ Conference Spending Practices and Oversight

                                               Page 32
                         Based on documentation we received, in five of the 11
                         conferences, costs amounting to $205,876 were incurred for
                         audiovisual or other technological equipment.

                         We also note other significant costs that can be incurred in holding
                         conferences and for which discretion should be used to ensure
                         reasonableness. One such cost appeared in the documents for
                         S&T’s presence at the Asia Pacific Expo, where $35,000 was spent
                         for booth space, along with $19,791 to rent and set up a display,
                         $11,082 to fly the display to Hawaii, and $6,201 for miscellaneous
                         exhibit space and freight costs. Although we did not have enough
                         information to determine the reasonableness of these costs, this is
                         an example of areas where components should maintain proper
                         documentation and justifications to demonstrate the necessity of
                         such costs and the fairness of the price.

                         Registration Fees

                         According to 31 U.S.C. § 3302(b), also known as the
                         Miscellaneous Receipts Statute, an official or agent of the
                         government receiving funds “from any source shall deposit the
                         money in the Treasury as soon as practicable without any
                         deduction for any charge or claim.” This is to prevent an agency
                         from augmenting its funds from sources outside of those
                         appropriated by Congress without statutory authority.

                         DHS’ Office of General Counsel 2006 and 2009 Conferences
                         memoranda explicitly state that DHS may not directly collect
                         "funds from individual conferees" or "exhibitor fees from private
                         entities" to defray or reduce the official costs of conferences.

                         Components confirmed that they did not charge attendees any
                         registration fees in connection with any of the DHS-sponsored
                         conferences we reviewed.

                         Cost Comparisons Often Were Not Conducted

                         Conference planners are required to conduct site comparisons and
                         are to consider both lower cost conference locations and venues at
                         various locations. 25 For conferences with greater than 30
                         attendees, federal agencies must consider at least three conference
                         sites and must maintain a cost record of each alternative

25
  41 CFR § 301-74.3: What must we do to determine which conference expenditures result in the greatest
advantage to the Government?


                           DHS’ Conference Spending Practices and Oversight

                                                Page 33
                           conference site. 26 With respect to comparing costs for specific
                           venues, a planner considers such items as the availability of
                           lodging rooms at per diem rates, transportation fees, the
                           convenience of location, availability of meeting space, and
                           equipment and supplies. 27 In addition, agencies “may not directly
                           procure lodging facilities in the District of Columbia without
                           specific authorization and appropriation from Congress.” 28

                           In assessing the justification for an agency hosting a formal
                           conference, GAO issued an opinion stating that “[a]n agency,
                           generally, does not need express statutory authority to host a
                           conference, so long as the agency determines that a formal
                           conference is reasonably and logically related to carrying out its
                           statutory responsibilities and serves its statutory mission.” 29
                           Therefore, for formal conferences, DHS should exercise great care
                           when expending federal resources on conference related activities,
                           ensuring that the conference site is not extravagant, overly
                           associated with vacation destinations, or otherwise inappropriate
                           for a conference of government personnel performing official
                           duties.

                           We determined that two components did not provide adequate
                           supporting documentation related to conducting cost comparisons.
                           FEMA sponsored a conference for its Region IX Regional
                           Interagency Steering Committee (RISC) meeting, which was held
                           at the Waikiki Beach Marriott Hotel. 30 The conference was
                           scheduled to coincide with the State of Hawaii’s Makani Pahili
                           Exercise as an opportunity to gain information and develop
                           realistic contingency plans for requirements to support the state
                           during an emergency response. FEMA reported agency attendance
                           at 32 and the total conference attendance, including local
                           attendees, was 195. Federal agencies are required to consider at
                           least three conference sites and keep records of these cost
                           comparisons when planning a conference for over 30 attendees.
                           FEMA officials stated that they were not aware of any cost
                           comparisons that might have been done with respect to the site
                           selection for the RISC meeting.



26
   41 CFR § 301-74.19: What records must we maintain to document the selection of a conference site?
 

27
   41 CFR §301-74.4: What should cost comparisons include?
 

28
   41 CFR §301-74.17: What special rules apply when a conference is held in the District of Columbia?
 

29
   GAO Opinion B-300826
 

30
   RISC meetings rotate from state to state in Region IX, and this meeting was held in Hawaii as its normal
 

place in the rotation. 



                             DHS’ Conference Spending Practices and Oversight

                                                  Page 34
                           Similarly, S&T provided information
                           Similarly,                information describing the purpose of the
                           BioWatch
                           BioW  atch conference, held in Wa
                                                          Washington, DC, as an opportunity
                           to share accomplishm
                                    accomplishments,
                                                 ents, discu
                                                       discuss
                                                            ss lessons learned, and target
                           future goals. According to S&
                                                       S&T T officials, 16 component staff
                           attended the conference, but approxim
                                                         approximately
                                                                   ately 400 peop
                                                                               people
                                                                                    le from
                           federal and state governments
                                             governments and the private sector also attended.
                           For this conference,
                                    conference, S&
                                                S&T used an external event planner that
                           organized the event and arranged for the location.
                                                                      location. However, S&T
                           did not ma
                                   maintain any supporting docu
                                                             docummentation to ensure th that
                                                                                           at the
                           external event planner conducted site comparisons
                                                                  comparisons or followed
                           federal regulations regarding renting facilities in the District
                                                                                   District ooff
                           Colum
                           Columbia.
                                  bia. S&T officials also noted that the in
                                                                          intern
                                                                             ternal S&T program
                                                                                          program
                           manager and Contracting Officer'
                                                     Officer'ss Technical Representative are no
                           longer employed
                                  employed by S&T, m  maaking it difficult to determine
                                                                               determine what
                           was actually done or where supporting docum
                                                                    documentation
                                                                            entation mmaay be. 31

                           Even though information provided for the other conferences
                                                                               conferences
                           dem
                           demonstrated
                                onstrated that cost
                           comparisons
                           comparisons were done for the                     Facilities
                           locations, ef
                                       efforts
                                         forts can be made
                           to m
                              miini
                                 nimmize expenditures
                                          expenditures for     NDMS......................

                                                                                     ........ $218,477
                                                                                              $218,477

                           the ren
                               rental
                                   tal of private facilities   RISC............................
                                                               RISC ............................ $5,837
                           whe
                           whenn governm
                                  governmentent facilities are Asia Attaché
                                                                    Attaché................ $1,725
                           available. Of the conferences       D17 .................................
                                                                   ................................. $800
                           we reviewed, five incurred          AToN ..............................
                                                                      .............................. $200 

                           facility costs, totaling 

                           $227,039.
                           $227,039.


                           In addition, consideration must
                                                       must be given to other cost categories to
                           ensure a well rounded evaluation of all costs when
                                                                           when choosing a
                           location. Fo
                                      Forr example,
                                           example, to eliminate
                                                       eliminate unnecessary expense, ICICE
                                                                                          E
                           used its own facilities, incurring
                                                    incurring no costs, when sponsoring the
                           conference on Detention Management Control Training. In
                           another case, the USCG used a naval
                                                             naval station for the We
                                                                                   West Coast
                           AToN conference
                                  conference at a cost of $200 with staff lodged on USCG
                           ships, mi
                                  minim
                                     nimizing
                                         izing hotel costs.




31
  A Contracting Officer’s Technical Representative is the liaison between the government and a private
contractor. The representative is responsible for recommending, authorizing, or denying actions and
expenditures for standard delivery orders and task orders, as well as monitoring the contractor’s progress in
performance of the technical requirements specified in the contract. The representative maintains
administration records, approves invoices, and performs final inspection and acceptance of work performed
under the contract.


                             DHS’ Conference Spending Practices and Oversight

                                                  Page 35
                          External Event Planner Use

                          The FTR does not provide specific guidance regarding the
                          outsourcing of conference planning to an external event planner.
                          In the absence of such guidance, it can be inferred, and was by the
                          Department of Justice Office of Inspector General, that the external
                          event planner, as an agent of the government, should comply with
                          the FTR’s general conference planning mandates. 32

                          DHS’ Office of General Counsel reinforces this inference in its
                          2006 Conferences memorandum by providing some DHS specific
                          guidance regarding what contract conference facilitators can and
                          cannot do.

                          Contract Conference Facilitators Can:

                                Act on behalf of an agency to identify suitable facilities and
                                generally assist with conference logistics
                                Assist in arranging the agenda, preparing conference

                                materials, and identifying speakers 

                                Collect the costs of "unofficial activities" that are available to
                                individual conferees at no additional cost to the government,
                                such as sightseeing trips or tickets to local sporting events

                          Contractors Cannot:

                                Do anything by proxy that government agents are barred 

                                from doing themselves 


                          According to a DHS official knowledgeable of department’s
                          conference activities, most planning is done internally. Three
                          conferences we reviewed used external event planners. Each
                          provided different levels of support, but the services included
                          performing site selections, arranging for hotel lodging and meeting
                          room space, and preparing budgets for DHS officials.

                          As a result of using external event organizers, we were able to
                          review detailed breakdowns of funds spent in specific cost
                          categories. For example, through the contract files maintained for
                          the FY 2007 CAO Forum, we obtained checklists of
                          documentation and comparisons, which ensured full compliance
                          with all applicable regulations. Similarly, we examined the

32
 Department of Justice Office of the Inspector General, Audit Report 07-42: Department of Justice
Conference Expenditures; September 2007.


                            DHS’ Conference Spending Practices and Oversight

                                                Page 36
             records of the external event planner for the FEMA 2006 NDMS
             conference, which provided essential information about budgeted
             vs. actual expenditures and a comparison with prior year
             expenditures. In this case, we obtained valuable cost information
             from the contractor and subcontractor that FEMA was unable to
             provide. Other than the submitted invoices, S&T did not provide
             any documentation from its external event planner for the
             BioWatch conference, so we were unable to determine the extent
             of documentation created for this conference.

             Because of insufficient documentation for all conferences
             reviewed, we did not draw conclusions about potential cost savings
             that may exist with the use or non-use of external event planners.
             However, when developing plans to sponsor a conference, an
             assessment is necessary to ensure that external event planning
             costs comply with regulations and policies and would be the most
             cost-effective means for planning a conference, compared with
             using internal staff.

             Given the identified deficiencies, it is prudent for DHS to develop
             effective methods to ensure that records created and received are
             maintained in a manner that allows for easy and timely retrieval.
             Adequate and proper documentation provides evidence of DHS
             activities and ensures a decision-making trail. In addition, a
             comprehensive record-keeping system supports the functions
             required to track financial and administrative transactions, and
             provides detailed information significant to the management of
             operations. These efforts will reduce inconsistencies in reported
             costs, minimize costs related to the rental of nongovernment
             facilities, and identify cost savings related to conference planners.


Recommendations
We recommend that the Under Secretary for Management, in coordination with
DHS components:

          Recommendation #7: Develop a department-wide record-keeping
          standard for conference related documents and records to ensure
          adequate documentation is maintained to justify and support all
          decisions and transactions.

          Recommendation #8: Designate a central point within each DHS
          component responsible for maintaining component-specific
          documentation related to conference expenditures.


               DHS’ Conference Spending Practices and Oversight

                                   Page 37
Management Comments and OIG Analysis
       Management Response: Management responded that it agreed with
       Recommendation 7. Management said comprehensive conference
       guidance should include direction on how to properly document and
       justify the decision for conducting a conference, including a cost
       benefit analysis and elements of cost that must be considered and
       documented in the decision process. Guidance on record-keeping
       standards should also be included and will be consistent with existing
       DHS Directives and guidance on record keeping requirements.

       Currently, DHS requires each component designate a senior
       accountable official to ensure component conference and travel related
       activities are mission critical and are conducted as efficiently and
       effectively as possible, but further comprehensive guidance would
       enhance implementation.

       OIG Analysis: In response to Recommendations 7 and 8,
       Management provided one response to address these
       recommendations. We consider Management’s proposed actions
       responsive to Recommendation 7, which is resolved and open. This
       recommendation will remain open pending our receipt of an official
       department-wide policy, which provides clear guidance to the
       department and all components on the reporting and documentation
       requirements necessary for hosting and co-hosting conferences as
       defined by the department. This guidance should be a mandatory
       minimum standard, in compliance with and supplementing the FTR,
       and include direction on the quality control of data submissions.

       Management Response: Management responded that it agreed with
       Recommendation 8. Currently, DHS requires each component
       designate a senior accountable official to ensure component
       conference and travel related activities are mission critical and are
       conducted as efficiently and effectively as possible, but further
       comprehensive guidance would enhance implementation.

       OIG Analysis: We consider Management’s proposed actions
       responsive to Recommendation 8, which is resolved and open. This
       recommendation will remain open pending our receipt of an official
       department-wide policy, which assigns the responsibility for tracking
       component-specific documentation related to conference expenditures
       and the reporting of such expenditures to a central designated entity.




            DHS’ Conference Spending Practices and Oversight 


                                Page 38 

           DHS Travel Expenditures Were Not Supported Consistently or in
           Compliance With Applicable Regulations
                   Federal employees on official government travel are limited in the types
                   and amount of expenses that can be reimbursed from appropriated funds.
                   They are expected to exercise the same care in incurring expenses that a
                   prudent person would when traveling on personal business. According to
                   the FTR, the per diem allowance is a flat daily payment, instead of a
                   reimbursement for actual expenses for lodging, meals, and related
                   incidental expenses. 33 The maximum per diem rate is dependent upon the
                   location of travel; and in general, receipts are required only for lodging
                   expenses and other expenses over $75. 34 These allowance rates are
                   established by GSA for in-CONUS locations. For non-CONUS locations,
                   the Department of Defense establishes allowances for non-foreign
                   locations, and the Department of State does the same for foreign locations.

                   Based on the number of attendees reported to us by five DHS components,
                   we requested 25% of the travel vouchers for examination in detail. Of the
                   72 vouchers we requested, DHS components were able to provide only 47,
                   or 65%. We were unable to determine or verify the costs of conference
                   related travel and travel reimbursements accurately because of deficiencies
                   in supporting documentation.

                         Table 7: Summary of Travel Documentation Requested and Received

                                                  Vouchers              Vouchers             Percentage
                          Component               Requested             Received *            Received
                            FEMA                       27                     21                78%
                            ICE                        18                      5                28%
                            USCG **                    13                     13            ** 100%
                            S&T                        12                      6                50%
                            DEP OPS                     2                      2               100%
                            Totals                     72                     47                65%
                          Source: OIG analysis based on data provided directly by components
                          * Attendees who incurred only local travel and were identified as such by the
                          component were included under “Voucher Received.”
                          ** USCG information included here is only for the D17 Commanding Officers’
                          Conference. No attendee list was kept for the D13 AToN conference; therefore, no
                          travel vouchers were requested.




33
     41 CFR §300-3.1 What do the following terms mean?
34
     41 CFR § 301-11.25 & 41 CFR § 301-52.4.



                             DHS’ Conference Spending Practices and Oversight 


                                                    Page 39 

                         Some Meals Were Not Deducted

                         We reviewed the available travel vouchers to determine whether
                         costs were reimbursed in accordance with applicable regulations
                         and policies. The FTR mandates the following when meals or light
                         refreshments are furnished by the government or are included in
                         the registration fee:

                                If meals are furnished, the appropriate deduction from the
                                meals and incidental expenses (M&IE) rate must be made,
                                and
                                If only light refreshments are furnished, no deduction of the
                                M&IE allowance is required. 35

                         Although meals had been provided to the attendees during several
                         of the conferences, we determined that some DHS employees had
                         not deducted the corresponding meal per diem amounts from their
                         official travel vouchers, as required. Thus, it appears these
                         individuals claimed and were reimbursed for meals they received
                         at no cost. For example, six employees neglected to deduct the
                         lunch portion of their M&IE for the FEMA NDMS conference
                         totaling $78. In another instance, one S&T employee who
                         attended the Asia Pacific Homeland Security Summit and Expo,
                         did not reduce the per diem to reflect any of the meals provided,
                         amounting to an overpayment of $102.

                         Some Transportation Reimbursements May Have Been
                         Excessive

                         We also noted some reimbursements seemed excessive and the
                         reasonableness could not be determined since there were no
                         notations justifying such costs. For instance, the federal
                         government reimbursed two travelers for what appears to be
                         unreasonably expensive taxi costs for the ICE Detention
                         Management Control Program Training. With this conference,
                         component officials said the travel vouchers were archived and no
                         longer available in their travel system. In lieu of travel vouchers,
                         the component provided travel authorizations printed from its
                         Federal Financial Management System.

                         In addition, to show the amounts paid to the attendees, ICE
                         officials provided copies of the travelers’ Obligation Document

35
  41 CFR § 301-74.21: What is the applicable M&IE rate when meals or light refreshments are furnished
by the Government or are included in the registration fee?


                           DHS’ Conference Spending Practices and Oversight

                                                Page 40
                          Transaction Reports from this system. However, ICE did not
                          provide receipts or invoices for the reimbursed expenses. Without
                          the receipts, it is difficult to determine whether the two payments
                          of $206 and $104 for taxi cost reimbursements were reasonable.
                          However, when compared to other travelers for the same
                          conference, records indicate that two other travelers were
                          reimbursed for taxis in the amount of $80 and $85. Also, for
                          S&T’s presence at the Asia Pacific Expo and DEP OPS’ presence
                          at the Privacy Conference, employees were reimbursed $272 and
                          $177 respectively for taxis.

                          In addition, there were flights to Singapore for two employees to
                          the ICE Asia Attaché Conference, which cost $8,654 and $7,207,
                          respectively. Although this conference took place in January 2007,
                          recent searches of similar itineraries for a round trip, restriction-
                          free, refundable coach ticket from Washington, DC, to Singapore
                          on the same air carrier quoted much lower fares. Although these
                          costs may be reasonable, the component did not submit receipts or
                          invoices to support the amounts claimed on the travel vouchers.

                          We also reviewed a number of other travel records that were
                          completed incorrectly and omitted relevant information. Some did
                          not provide adequate explanation or justifications on the travel
                          documentation to readily determine the appropriateness of the
                          costs. For example, it appeared that FEMA reimbursed one
                          employee $176 for a canceled airline ticket, a second employee
                          $466 for duplicate lodging costs, and a third for $145 for an extra
                          day of lodging and per diem. In another example, DEP OPS
                          provided reimbursement of a $454 conference fee to attend an
                          evening gala for an employee at the Privacy Conference. The cost
                          was separate from the cost of the conference itself and typically
                          would not be reimbursable. Again, without proper justifications
                          noted on the supporting documentation, we cannot determine
                          whether these reimbursed costs were appropriate.

                          Lastly, S&T approved a reimbursement for an employee to use a
                          non-city-pair airline carrier for restricted air travel booked through
                          a commercial web-based travel site. 36 The FTR requires federal
                          employees to use city-pair contract fares, reserved through the E-
                          Gov travel service or their agency’s travel management system,
                          with very limited exceptions. One exception states that a non-
                          contract carrier can be used when a lower fare is offered to the

36
  GSA administers the Airline City-Pair program, which offers discounted air passenger transportation for
federal government travelers.


                            DHS’ Conference Spending Practices and Oversight

                                                 Page 41
general public that, when used, will result in a lower total trip cost
to the government. Although the employee saved $226, or 19% of
the city-pair unrestricted contract fare, by using the commercial
travel service, no documentation existed comparing unrestricted
airfare through the commercial web-based travel site. In addition,
this exception appeared to be used solely for the purpose of
allowing the employee to conduct personal travel.

The employee was on approved leave for four days prior to the
conference. Records indicate that the employee flew from the duty
station in Washington, DC, to Texas, stayed in Texas for four days,
and then flew from Texas to Hawaii, the conference site. After the
weeklong conference, the employee flew from Hawaii back to
Texas, stayed for the weekend, and then flew back to the duty
station. This flight activity appears to have supplemented personal
costs for a vacation that was in essence paid for by the federal
government. In addition, there was no documentation in the travel
packet to support the claim that the price difference represented a
significant cost-saving to the government, or that it resulted in a
lower total trip cost, as required by the FTR.

Although DHS may not have incurred any additional costs with
these travel plans—and actually saved money in the transaction—
DHS must ensure that decisions to use non-contracted airfares are
made for mission-critical purposes and not solely for employee
preferences. For instance, the Department of Health and Human
Services requires authorization for the use of non-contract carrier
service only when the cost savings on the non-contract fare will be
at least 40% of the total cost of the contract carrier fare. This helps
ensure the integrity of the entire federal government contract,
which is negotiated to provide major cost savings and
competitiveness over time.

Under the 2009 DHS Secretary’s Efficiency Review Initiatives, the
department recently identified particular areas of potential
inefficiency, and employee travel is one of those areas. Every
effort should be made to ensure that conference-related travel is for
mission-related purposes and incurs the least cost. Establishing
controls will assist in identifying costs that do not further DHS’
mission, or are not advantageous for the department to incur. By
not performing adequate internal controls for conference-related
travel, DHS is subject to unallowable and excessive charges.
Attention must be paid to reimbursements for travel so that
adequate documentation is maintained and all employees are
exercising fiscal care.


 DHS’ Conference Spending Practices and Oversight

                     Page 42
Recommendations
We recommend that the Under Secretary for Management, in coordination with
DHS components:

          Recommendation #9: Develop measures to ensure compliance with
          federal regulations regarding the reduction of meals and related
          incidental expense rate for government-provided meals, use of non-
          contract airline carriers, and reasonableness of travel costs.

          Recommendation #10: Ensure that justifications for travel expenses
          are properly documented and records are retained to support decisions
          and transactions.

Management Comments and OIG Analysis
          Management Response: Management responded that it agreed with
          Recommendation 9. Guidance on federal regulations regarding the
          reduction of meals and related incidental expense rate for government-
          provided meals, use of non-contract airline carriers, and
          reasonableness of travel costs is currently provided in the DHS Travel
          Handbook.

          Management will further develop and communicate guidance on how
          to comply with these regulations. Sampling of invoices from
          conferences in which meals were provided as well as sampling of non-
          contract carrier costs and of travel costs exceeding a review trigger
          level are among of several approaches being considered to test
          compliance with Federal regulations.

          OIG Analysis: In response to Recommendations 9 and 10,
          Management provided one response to address these
          recommendations. We consider Management’s proposed actions
          responsive to Recommendation 9, which is resolved and open. This
          recommendation will remain open pending our receipt of
          documentation describing the methodology and procedures used to
          ensure department and component compliance with the FTR and DHS
          conference policies.

          Management Response: Management responded that it agreed with
          Recommendation 10. Management will further develop and
          communicate guidance on how to comply with these regulations.
          Sampling of invoices from conferences in which meals were provided
          as well as sampling of non-contract carrier costs and of travel costs
          exceeding a review trigger level are among of several approaches
          being considered to test compliance with federal regulations.

               DHS’ Conference Spending Practices and Oversight

                                   Page 43
        OIG Analysis: We consider Management’s proposed actions
        responsive to Recommendation 10, which is resolved and open. This
        recommendation will remain open pending our receipt of a
        department-wide communication that provides specific guidance and
        stresses the importance of maintaining pertinent documentation. In
        addition, the communication should identify a saving threshold above
        which it is allowable for DHS employees to procure flights with non-
        contract air carriers, and the documentation necessary to demonstrate
        the non-contract price satisfies the savings threshold.


Departmental Coordination of Sponsored Conferences Would
Facilitate Efficiencies
     One of the fundamental management goals for DHS leadership is to unify
     the diverse aspects of each component. This includes the standardization
     of managerial practices and systems to allow interconnectivity and cross-
     communication. This standardization is essential to join interrelated
     functions and eliminate duplicate activities and costs. However, there is a
     need to coordinate across DHS components to minimize duplication in
     facilitating conferences.

            Leverage Technology and Resources to Share Information and
            Reduce Costs

            It is critical that components develop innovative methods to
            leverage skills, capabilities, experiences, and knowledge that reside
            throughout the department, and explore new ways to share
            information that are less costly than conferences that require travel.
            For example, rapidly expanding technologies such as video-
            linking, teleconferencing, and online interactive webinars could be
            effective alternatives to smaller conferences and could reduce
            costs.

            Larger conferences could use similar technologies or be combined
            with other training and related events to reduce the planning and
            execution costs of sponsoring several different conferences with
            similar purposes. For example, NDMS holds a DHS and
            government-wide annual conference that creates cross-
            organization collaboration to provide many opportunities at a
            single event. It has become a central gathering point for numerous
            organizations that participate in the same industry, but in differing
            and complementary capacities. Such coordination and
            collaboration helps to use facilities and resources better, while
            fostering new avenues of communicating and mission efficiency.

              DHS’ Conference Spending Practices and Oversight

                                  Page 44
                           The department should undertake a review of annual conferences
                           to determine whether other cost saving means for communicating
                           information would be more appropriate. For example, the USCG
                           District 17 Commanding Officers’ Conference is held annually
                           after USCG staff is rotated throughout the district offices. The
                           conference provides an opportunity for the District Commander to
                           meet with officers to review procedures and expectations. For the
                           FY 2009 conference, the Commanding Officer conducted a needs
                           assessment, determined that there had been no change in leadership
                           since the last annual Commanding Officers’ Conference, and
                           canceled the one scheduled. Rather than holding the annual
                           conference solely because it is sponsored every year, USCG
                           leadership exercised fiscal prudence and decided to use other
                           means to communicate with the staff, potentially saving more than
                           $113,000. 37

                           Oversight and Coordination Measures Need Development

                           A coordinated approach to planning conferences is critical to align
                           departmental efforts and resources adequately. In some cases,
                           components are disconnected from each other, with little or no
                           interaction, which creates different resource prioritization and
                           potential duplication of efforts across the department. Without
                           knowledge of ongoing component conference activities,
                           headquarters elements do not have the information they need to
                           ensure that DHS’ overall strategic goals are being achieved in the
                           most efficient manner possible. Therefore, the department needs
                           to develop measures that provide oversight and coordination of
                           conference planning to ensure that all possible cost savings are
                           explored, cooperative relationships are used to maximize benefits
                           and departmental objectives, and organizational tools are
                           incorporated into the process.

                           Oversight measures provide the department with an ability to
                           allocate and monitor limited resources, and expand its efforts to
                           review how components use program funds for conferences. A
                           central coordinator or oversight capacity within Management can
                           provide a broader perspective of conference planning activities
                           occurring across the department. Specifically, best practices from
                           previous events and lessons learned from external departments and
                           agencies could be reviewed to assist and monitor the planning and
                           costs of future DHS conferences.

37
     The FY 2006 Commanding Officers’ Conference cost $113,401.


                            DHS’ Conference Spending Practices and Oversight

                                                Page 45
Recommendations
We recommend that the Under Secretary for Management, in coordination with
DHS components:

          Recommendation #11: Develop a plan to standardize managerial
          practices and systems to allow coordination, cross-communication,
          and interconnectivity in conference planning and spending activities.

          Recommendation #12: Explore using more cost-effective means and
          technologies as alternatives to sponsoring conferences and related
          travel.

Management Comments and OIG Analysis
          Management Response: Management responded that it agreed with
          Recommendation 11. Management said that work is under way as a
          part of the efficiency initiative on travel and use of government
          facilities for DHS events, and efficiency will serve as a basis for
          building comprehensive DHS policy on conferences. DHS established
          a Conference and Event Planning Services working group to
          investigate potential methods of achieving savings in this area. This
          working group has surveyed components to gather requirements for
          events across the department, and is conducting market and industry
          research with internal government event planners. The working group
          is also developing a resource package with low or no cost alternatives
          for employees to use while planning conferences and events.

          As part of the quarterly reporting for efficiency initiatives,
          Management said that components are identifying alternative cost-
          cutting measures, such as holding conferences locally, using non-DHS
          government-owned facilities, and sending fewer people to
          conferences. Live web-conferencing has been held to link participants
          at hundreds of locations across the country and, in another cost-cutting
          move, information was posted on the web and then local and web-
          based training was conducted instead of gathering personnel in a single
          commercial location.

          In addition, Management said there are several noteworthy examples
          of progress toward implementing a more cost effective means of
          conducting conferences across the department. The department held
          an initial Industry Day conference to introduce the EAGLE II
          procurement using Microsoft Live Web-conferencing reaching over
          600 participants across the country. The cost for this conference was
          only $30.00 compared to over $10,000 for similar events in rented

               DHS’ Conference Spending Practices and Oversight

                                   Page 46
                    space. U.S. Customs and Border Protection restructured its mission
                    support training form and saved approximately $640,000 in travel and
                    administrative costs. Posting training material on the Customs website
                    and by conducting local and web-based training instead of gathering
                    mission support personnel in a single commercial location achieved
                    the savings.

                    OIG Analysis: In response to Recommendations 11 and 12,
                    Management provided one response to address these
                    recommendations. We consider Management’s proposed actions
                    responsive to Recommendation 11, which is resolved and open. This
                    recommendation will remain open pending our receipt of
                    documentation describing the methodology and procedures used to
                    facilitate communication and coordination among the department and
                    all components to minimize conference hosting and attendance
                    redundancies.

                    Management Response: Management responded that it agreed with
                    Recommendation 12. In its response, Management cited a number of
                    examples where progress toward implementing a more cost effective
                    means of conducting conferences across the department was
                    accomplished.

                    OIG Analysis: We consider Management’s proposed actions
                    responsive to Recommendation 12, which is resolved and closed. No
                    further reporting on this recommendation is necessary.


        Conclusion
                Optimizing processes and systems to facilitate integration and
                coordination of departmental operations is an objective identified in DHS’
                Strategic Plan. 38 Department-wide conference planning policies can
                result in significant benefits such as establishing joint strategies; reducing
                the effect of conflicting strategies; addressing needs through leveraging
                combined resources; defining component roles and responsibilities to
                reduce duplication; and defining and implementing compatible
                regulations, policies, and procedures.

                The department’s conference planning policies need to provide clear,
                consistent, and adequate guidance and instructions. Conference planning
                should be defined and monitored at the departmental level to ensure

38
  One Team, One Mission, Securing Our Homeland: U.S. Department of Homeland Security Strategic
Plan, Fiscal Years 2008–2013.


                          DHS’ Conference Spending Practices and Oversight

                                              Page 47
consistency across components and the incorporation of due diligence and
standards into conference planning and administration. DHS needs to be
able to demonstrate its results in sponsoring and hosting conferences.

Current departmental guidance provides for widely varying policies and
procedures among the components, which perpetuates confusion and
inconsistency in policy interpretations. A central coordination point for
policies, monitoring, and reporting of conference expenditures should be
established to minimize these differences. This will provide consistency
of policy and guidance application, term definition, cost consolidation and
report reconciliation; sharing of common data among components; and
program performance and contribution alignment to departmental strategic
goals and objectives.




         DHS’ Conference Spending Practices and Oversight 


                             Page 48 

Appendix A
Purpose, Scope, and Methodology
Appendix A: Purpose, Scope, and Methodology




                                              At the request of Representative Bennie G. Thompson, Chairman
                                              of the House Committee on Homeland Security, we reviewed
                                              DHS’ conference spending practices. Specifically, we assessed:

                                                     The total amount spent by DHS on producing or facilitating
                                                     conferences, retreats, and other offsite activities for
                                                     FYs 2005, 2006, and 2007, and obtained
                                                     A full listing of each conference that received funding or
                                                     staffing support from DHS during FY 2007. 39

                                              Our scope was limited to examining department-wide policies,
                                              oversight, and reporting of conference planning and spending
                                              practices, as well as evaluating conference-related activities in five
                                              DHS components. We examined conference spending data
                                              provided by OCFO for FYs 2005–07, computed the total
                                              expenditure, and arranged these costs by component in categories
                                              such as general support, programming, staff salaries, travel, and
                                              other associated costs.

                                              We further analyzed the components’ budgets, funds spent on
                                              conferences, the number and location of conferences, full-time
                                              equivalent staff allotments, and employee attendance at
                                              conferences for each component. From this analysis and
                                              comparison, we selected FEMA, S&T, USCG, ICE, and DEP OPS
                                              to examine in detail.

                                              To emulate the methodology used in the Department of Justice
                                              Conference Expenditures report as requested by Chairman
                                              Thompson, we then selected the most expensive in-CONUS and
                                              non-CONUS conferences, according to DHS records, held or
                                              attended during FYs 2005–07 by each of our sample components,
                                              totaling ten conferences. 40 By selecting both in-CONUS and non-
                                              CONUS conferences, we were able to include a review of other
                                              areas of potential concern, such as the selection of conference
                                              locations. In addition, we included a recent FY 2009 conference
                                              attended by S&T staff in Hawaii. We reviewed these 11
                                              conferences in detail, including general background information,
                                              justifications, and financial documentation, such as contracts or
                                              invoices, travel vouchers, and relevant cost comparisons.


39
   Due to the size of the FY 2007 conference list, it is provided as a separate attachment to this report, 

Attachment 1. 

40
   Department of Justice Office of Inspector General, Audit Report 07-42: Department of Justice 

Conference Expenditures, September 2007 



                                               DHS’ Conference Spending Practices and Oversight

                                                                   Page 49
Appendix A
Purpose, Scope, and Methodology

                   We conducted DHS headquarters and component interviews and
                   site visits in the Washington, DC, metropolitan area. In addition,
                   we conducted teleconferences with DHS component field offices.
                   We interviewed officials from OCFO, CAO, Privacy Office, and
                   Office of the Procurement Officer. We also interviewed officials
                   from the Office of International Affairs, FEMA, S&T, USCG, and
                   ICE. Last, we reviewed relevant laws and regulations, department-
                   wide and component-specific policies and procedures related to
                   conference spending, and analyzed documents received through
                   data requests.

                   Our fieldwork was performed between August 2008 and March
                   2009. This review was conducted under the authority of the
                   Inspector General Act of 1978, as amended, and according to the
                   Quality Standards for Inspections, issued by the President’s
                   Council on Integrity and Efficiency.




                    DHS’ Conference Spending Practices and Oversight 


                                        Page 50 

Appendix B
Management Comments to the Draft Report
Appendix B: Management Comments to the Draft Report




                                                      DHS’ Conference Spending Practices and Oversight

                                                                          Page 51
Appendix B
Management Comments to the Draft Report




                   DHS’ Conference Spending Practices and Oversight 


                                       Page 52 

Appendix B
Management Comments to the Draft Report




                   DHS’ Conference Spending Practices and Oversight 


                                       Page 53 

Appendix B
Management Comments to the Draft Report




                   DHS’ Conference Spending Practices and Oversight 


                                       Page 54 

Appendix B
Management Comments to the Draft Report




                   DHS’ Conference Spending Practices and Oversight 


                                       Page 55 

Appendix C
Congressman Thompson’s Request Letter
Appendix A: Congressman Thompson’s Request Letter




                                                    DHS’ Conference Spending Practices and Oversight

                                                                        Page 56
Appendix D
Descriptions of Eleven Sample Conferences Reviewed
Appendix B: Descriptions of Eleven Sample Conferences Reviewed




                                                                 National Disaster Medical System (NDMS) Conference
                                                                                 About the Conference:
                                Component: FEMA
                                                                                 The federally coordinated National Disaster Medical System
                                                                                 was designed to enhance the Nation’s capability to respond
                                DHS-Sponsored: Yes                               to medical emergencies. It supports the medical response of
                                                                                 state and local authorities to medical peacetime
                                Venue/Location: Hilton                           emergencies, and helps coordinate the care of wounded
                                Resort and Casino.                               military evacuated from overseas armed conflicts. The goal
                                Reno, Nevada                                     of this annual conference was to increase the exchange of
                                                                                 ideas among key stakeholders in this aspect of emergency
                                                                                 management, as well as give participants opportunities to
                                Date: April 21–27, 2006                          network with experts. The theme of the 2006 conference
                                                                                 was Catastrophic Care for the Nation. Experts from local,
                                                                                 state, and federal agencies, as well as academic institutions,
                                Cost: $3,347,952 41                              presented on advances in clinical medicine, health system,
                                                                                 response teams, veterinary issues, and mortuary issues.


                                                                  Detention Management Control Program Training
                                                                                 About the Conference:
                                Component: ICE
                                                                                 ICE uses facilities all over the United States to detain and
                                                                                 apprehend illegal, fugitive, and criminal aliens. These
                                DHS-Sponsored: Yes                               include eight secure ICE-operated facilities, seven
                                                                                 contracted facilities, and several local and state jails and
                                Venue/Location: ICE                              federal prisons. National Detention Standards Training
                                training facility.                               ensures that staff at all these detention facilities can perform
                                Batavia, New York                                their duties in line with standards for the treatment of
                                                                                 detainees. Training is based on responsibilities and
                                Date: January, March, and                        exposure to detainees and is required annually (including
                                June 2006                                        volunteers and contractors). This training is held at multiple
                                                                                 times during the fiscal year.
                                Cost: $146,647




41
                    All costs shown are those reported by the components for our review, unless otherwise noted.


                                                                       DHS’ Conference Spending Practices and Oversight

                                                                                           Page 57
Appendix D
Descriptions of Eleven Sample Conferences Reviewed

                                    West Coast AToN Conference
                                      About the Conference:
      Component: USCG
                                      The Aid to Navigation (AToN) system is a collection of
                                      markers and signals that allow boaters to navigate U.S.
      DHS-Sponsored: Yes              waters safely. The USCG is responsible for the positioning
                                      and upkeep of these aids. The West Coast AToN
                                      Conference is an annual forum where AToN personnel from
      Venue/Location: Naval           the 11th and 13th USCG Districts receive mandated training
      Station Everett.                and updates on Major Command changes that affect the
      Everett, WA                     AToN program, ships, and teams. It also provided an
                                      opportunity for sharing best practices. Training received at
      Date: May 15–19, 2006           the 2006 conference ranged from aids positioning, CPR, and
                                      food service to chainsaw training and waterway procedure
                                      policy updates. In addition, this conference featured a
                                      competition comprising events that also serve as training,
      Cost: $22,934                   including damage control events such as a firefighting
                                      obstacle race.


                              2005 National BioWatch Workshop
                                      About the Conference:
      Component: S&T
                                      BioWatch is an early detection system designed to thwart a
      DHS-Sponsored: Yes              biological attack on the United States. The system is
                                      composed of sensors and collection devices and depends on
                                      coordination of state and local health testing laboratories, all
      Venue/Location: Hyatt           levels of government, and the public health community.
      Regency Capitol Hill.           The system is overseen by DHS. The workshop provided an
      Washington, DC                  opportunity for key BioWatch leaders and stakeholders to
                                      discuss accomplishments, lessons learned, and future goals
      Date: August 16–18, 2005        for the program. The 2005 workshop included breakout
                                      sessions in field sampling and collection, laboratory
                                      analysis, medical and epidemiologic response, public
      Cost: $503,000 42               relations and risk communications, and information
                                      technology.




42
     Cost provided to OCFO by S&T


                           DHS’ Conference Spending Practices and Oversight

                                                Page 58
Appendix D
Descriptions of Eleven Sample Conferences Reviewed

                                 FY 2007 CAO Forum
                                About the Conference:
  Component: DEP OPS
                                This annual conference was targeted toward the
  DHS-Sponsored: Yes            administrative professionals within DHS as well as invited
                                guests. The conference included presentations on DHS
                                Administrative Services’ plans, policies, evolving systems,
  Venue/Location:               regulations, and compliance and the DHS Senior Leadership
  Mandarin Oriental Hotel.      vision for Organizational Excellence. In addition, there
  Washington, DC                were sessions on how to brainstorm solutions to
                                administrative challenges. At the 2007 conference,
  Date: January 9–11, 2007      attendees were able to express interest and participate in
                                breakout sessions in the following fields: real property,
                                personal property, mobile assets, mail management,
                                environmental management, environmental planning and
  Cost: $300,000                historic preservation, employee safety and health, energy
                                and fuels management, and records and library management
                                services.

Non-CONUS Conferences Reviewed

             Regional Interagency Steering Committee (RISC) Meeting
                                About the Conference:
  Component: FEMA
                                Regional Interagency Steering Committees (RISC) are
                                groups of stakeholders responsible for emergency
  DHS-Sponsored: Yes            preparedness and response in a region. There is a RISC for
                                each of the ten FEMA regions and each RISC meets at least
                                quarterly. This meeting was held by FEMA Region IX. It
  Location: Waikiki Beach       took place at the same time as the State of Hawaii’s Makani
  Marriott.                     Pahili Exercise to inform and review the content of and to
  Honolulu, HI                  test the assumptions made in the federal section of the draft
                                Hurricane Concept of Operations Plan for the State of
  Dates: May 22–23, 2007        Hawaii. Key discussion points included logistics and timely
                                resource access and distribution throughout the state in cases
                                of emergency.

  Cost: $176,094




                      DHS’ Conference Spending Practices and Oversight 


                                          Page 59 

Appendix D
Descriptions of Eleven Sample Conferences Reviewed

                          Asia Regional Attaché Conference
                               About the Conference:
  Component: ICE
                               ICE stations attachés all over the world. Their role is to
                               facilitate and conduct overseas investigations with other ICE
  DHS-Sponsored: Yes           offices, DHS components, federal agencies, and foreign
                               counterparts. This meeting brought together the ICE
                               attachés in the Asia region. The conference included an
  Location: The Regent.        observation of the Woodlands Land Border Crossing,
  Singapore                    overviews of the ICE Office of International Affairs
                               mission, Visa Security Unit training, Detention and
                               Removal training, database training, and overviews of
  Date: January 22–26,         Forced Child Labor and Textile Transshipment. The
  2007                         attendees also interacted with local law enforcement, the
                               Department of State, and the other component attachés in
                               Singapore. Attachés presented and discussed challenges,
  Cost: $113,184               issues, and lessons learned from significant cases and
                               investigations.


                     D17 Commanding Officers’ Conference
                               About the Conference:
  Component: USCG
                               This conference was held by the Alaska-based District 17.
                               This annual conference is traditionally held in November, at
  DHS-Sponsored: Yes           which time USCG staff has been rotated throughout the
                               district offices and new staff has been placed within district
                               offices. At this conference, the District Commander meets
  Venue/Location:              with all of the Commanding Officers in the district, and
  Westmark Baranof Hotel.      reviews his or her vision and expectations. This opportunity
  Juneau, AK                   to review critical procedures ensures that Commanding
                               Officers are compliant with D17 mission goals.
  Date: November 29–
  December 1, 2005


  Cost: $113, 401




                     DHS’ Conference Spending Practices and Oversight 


                                         Page 60 

Appendix D
Descriptions of Eleven Sample Conferences Reviewed

              International Underwater Tunnel Protection Workshop
                               About the Conference:
  Component: S&T
                               The main conference themes were assessment of existing
  DHS-Sponsored: Co-           infrastructure, mitigation measures and solutions, and
  sponsored with United        emergency planning response and recovery. The main
  Kingdom Home Office          objective of the conference was to expose the participants to
                               recent developments in underwater tunnel security, and
  Venue/Location:              comparing and contrasting U.S., U.K., and European
  Institution of Civil         practice. In addition, attendees were able to discuss the
  Engineers.                   potential for future partnerships, research, and information
  London, England              exchange. More than 50 participants were invited to this
                               international conference, bringing together various
  Date: June 11–13, 2007       stakeholders including government agencies, industry,
                               infrastructure owners, and academic and professional
                               institutions.
  Cost: $100,000


           2008 Asia-Pacific Homeland Security Summit and Exposition
                               About the Conference:
  Component: S&T
                               The theme of the conference was Scientific Research for
                               Homeland Security: Fostering International Partnerships.
  DHS-Sponsored: No            The State of Hawaii hosted the Summit and it included
                               presentations by S&T staff. The participants were from the
                               public and private sectors who had homeland security
  Venue/Location:              responsibilities or who provided related products and
  Sheraton Waikiki Hotel.      services. Over the three days, a number of panels were held
  Honolulu, HI                 on various topics, including persistent surveillance –
                               surface, underwater, and air; science and technology
  Date: October 8–10, 2008     solutions to homeland security challenges; avian influenza;
                               all-hazards awareness in Oceania; energy security and
                               resiliency; food defense vulnerabilities, and intervention
  Cost: $93,036                strategies.




                     DHS’ Conference Spending Practices and Oversight 


                                         Page 61 

Appendix D
Descriptions of Eleven Sample Conferences Reviewed

       29th International Data Protection and Privacy Commissioner’s Conference
     Component: DEP OPS              About the Conference:
     (Privacy)                       The conference was organized around several privacy
                                     issues: public safety, globalization, law meets technology,
     DHS-Sponsored: No               ubiquitous computing, the next generation, Internet crime,
                                     and the body as data. In addition, institutional responses to
                                     these issues were discussed, including multi-sector and
     Venue/Location: Le              inter-jurisdictional collaboration, privacy seals,
     Centre Sheraton Hotel.          de-identification, audits, and privacy impact assessments.
     Montreal, Canada                Some of the broader conference themes included “the
                                     meaning of privacy, the privacy vs. security dichotomy, and
     Date: September 25–28,
                                     deficiencies in existing legal approaches.” 43
     2007

     Cost: $16,354




43
 A Report on “Terra Incognita:” The 29th International Conference of Data Protection and Privacy
Commissioners; accessed March 10, 2009.



                           DHS’ Conference Spending Practices and Oversight

                                                Page 62
Appendix E
Total Amount Spent, by Component and by Fiscal Year

Appendix C: Total Amount Spent, by Component and by Fiscal Year




    Conference Costs by Component, 2005. Total Reported Expenditure: $9.12 million

                                                                              Number of
                                                                  Component                 General Support       Programming            Salaries             Travel            Other Costs                Total**
                                                                              Conferences

    Customs and Border Protection*                                             Unknown      $        80,000   $         242,985     $        699,741    $        875,617    $          116,270    $             1,771,628

   DEP OPS***                                                                    126        $       157,433   $          29,388     $        242,795    $        108,735    $           32,521    $              541,484
   Emergency Preparedness and
   Response (FEMA)                                                               297        $        55,958   $         630,653     $        957,225    $      1,149,688    $           69,062    $             2,231,933
   Federal Law Enforcement Training
   Center                                                                         19        $         3,000        None reported    $        128,431    $         98,400          None reported   $              229,831
   Information Analysis and
   Infrastructure Protection                                                      63        $        31,920   $         387,079     $        144,058    $         91,466    $           12,053    $              279,497

   ICE                                                                            60        $        40,263   $           2,160     $        279,261    $        322,638    $          655,519    $             1,297,681

    S&T                                                                           56        $       178,445   $         845,112     $         80,089    $        518,170    $          527,001    $             1,303,705
    State & Local Government
    Coordination & Preparedness                                                   75        $       326,620   $       1,174,554     $         31,345    $         24,890    $           19,957    $              402,812
    Transportation Security
    Administration*                                                            Unknown      $       259,977        None reported        None reported       None reported         None reported   $              259,977

    US VISIT                                                                      1         $        10,526        None reported    $         15,555    $         12,000          None reported   $                  38,081

    Citizen and Immigration Services                                              5         $        20,913   $          52,403     $        629,088    $        359,488    $            11,712   $             1,021,200
                  Totals                                                         702        $     1,165,054   $       3,364,334     $      3,207,588    $      3,561,092    $         1,444,095   $             9,377,829

   Prepared by ISP using data received from the DHS Office of the Chief Financial Officer, 8/20/2008
   *TSA and CBP did not report number of conferences to the DHS-CFO for FY 2005
   **Totals do not include Programming Costs, which are pre-conference cost estimates
   ***Departmental Operations (DEP OPS) includes the Offices of the Secretary & Executive Management, the Undersecretary for Management, the Chief Financial Officer, and the Chief Information Officer.




                                                                                                DHS’ Conference Spending Practices and Oversight 


                                                                                                                        Page 63 

Appendix E
Total Amount Spent, by Component and by Fiscal Year


Conference Costs by Component, 2006. Total Reported Expenditure: $50.4 million

                                               Number of
             Component                                               General Support             Programming             Salaries               Travel                Other Costs                     Total**
                                               Conferences

Analysis and Operations                               7                   None reported           None reported      $           8,035    $            6,035     $                 4,985     $                  19,055

Customs and Border Protection                        56              $           646,236     $        3,504,746      $      2,412,988     $       2,144,317      $              118,076      $              5,321,618

DEP OPS***                                          115              $           579,614     $            20,395     $        246,050     $          108,855     $                21,440     $               955,959

Domestic Nuclear Detection Office                    25              $            96,023     $            42,770     $         18,235     $          100,948     $                 4,347     $               219,553

FEMA                                                376              $         2,385,762     $          469,405      $      5,413,347     $       4,856,046      $              106,256      $             12,761,411
Federal Law Enforcement Training
Center                                               20              $              7,200         None reported      $         55,607     $           51,169     $                 1,011     $               114,987

ICE                                                 584              $            58,507     $          348,223      $      5,880,146     $       3,577,721      $              557,536      $             10,073,910

Office of the Inspector General                       1                   None reported           None reported      $           7,495    $            2,628     $                 1,050     $                  11,173

Preparedness Directorate                            187              $         2,840,670     $        2,134,626      $        352,466     $          199,383     $                28,696     $              3,421,214

S&T                                                  66              $           116,549     $            12,765     $        152,823     $          114,524     $                39,770     $               423,666
Transportation Security
Administration                                      115                   None reported           None reported      $      1,206,596     $          736,131     $              258,217      $              2,200,944

US VISIT                                             24                   None reported           None reported      $         25,281     $           13,490     $                15,192     $                  53,963

U.S. Coast Guard                                   1300              $           530,376     $          586,384      $      6,074,743     $       6,023,457      $            1,749,840      $             14,378,417

Citizen and Immigration Services                      6                   None reported      $          439,600      $        208,705     $          187,075     $                43,434     $               439,214

Unknown/Other*                                      142                   None reported      $            3,000      $         5,491      $           8,357      $                1,095      $                 14,943
                Totals                             3024              $       7,260,937       $        7,561,914      $    22,068,008      $      18,130,137      $            2,950,946      $             50,410,028

Prepared by ISP using data received from the DHS Office of the Chief Financial Officer, 8/20/2008
*Includes $9,416.36 of reported expenditures with no component designation, and one DoD conference for $5,527.
 

**Totals do not include Programming Costs, which are pre-conference cost estimates
 

***Departmental Operations (DEP OPS) includes the Offices of the Secretary & Executive Management, the Undersecretary for Management, the Chief Financial Officer, and the Chief Information Officer.
 





                                                                           DHS’ Conference Spending Practices and Oversight 


                                                                                                        Page 64 

Appendix E
Total Amount Spent, by Component and by Fiscal Year


Conference Costs by Component, 2007. Total Expenditure: $51.13 million

                                               Number of
             Component                                               General Support              Programming            Salaries               Travel                Other Costs                         Total*
                                               Conferences

Analysis and Operations                              29                   None reported       $            6,500     $           8,777     $            7,591    $                    840    $                      17,208

Customs and Border Protection                       242              $           325,481      $       1,488,661      $      2,842,630      $       3,606,850     $               477,009     $                7,251,970

DEP OPS**                                           200              $             89,670     $         155,670      $        569,608      $         336,139     $                78,110     $                1,073,528

Domestic Nuclear Detection Office                    68              $           100,934           None reported     $        126,034      $         104,259     $                  4,495    $                     335,722

FEMA                                                736              $             80,368     $         442,390      $      2,220,054      $       2,478,303     $               266,272     $                5,044,997
Federal Law Enforcement Training
Center                                               93              $             71,422          None reported     $        264,940      $         261,169     $                53,955     $                     651,486

Intelligence and Analysis                            88              $              8,502          None reported     $        222,606      $         173,505     $                  3,825    $                     408,438

ICE                                                 680              $             77,530     $       1,332,230      $      4,413,732      $       4,645,624     $               348,126     $                9,485,013
National Protection & Programs
Directorate                                          83              $             68,406     $       1,145,490      $        331,602      $         164,408     $                90,945     $                     655,361

Office of Health Affairs                             19              $         1,722,561      $           13,525     $          89,897     $          28,020     $                  4,337    $                1,844,815

Office of the Inspector General                       2              $                675          None reported     $           6,620     $              666            None reported       $                       7,961

S&T                                                 173              $           175,557      $           14,642     $        533,181      $         479,683     $               339,908     $                1,528,328
Transportation Security
Administration                                      292              $             75,694     $         386,141      $      1,619,932      $       1,480,897     $                95,072     $                3,271,595

U.S. Coast Guard                                    1711             $           217,699      $       2,422,953      $      9,836,311      $       5,662,432     $               494,999     $               16,211,442

Citizen and Immigration Services                     57              $             25,321     $         593,103      $      1,239,359      $       1,114,425     $                98,995     $                2,478,100

U.S. Secret Service                                 160                   None reported       $          14,342      $        575,561      $        142,060      $              145,102      $                  862,723
                Totals                              4633             $       3,039,822        $       8,015,647      $     24,900,845      $     20,686,031      $            2,501,990      $               51,128,688

Prepared by ISP using data received from the DHS Office of the Chief Financial Officer, 8/20/2008 and 8/25/2008
*Totals do not include Programming Costs, which are pre-conference cost estimates
 

**Departmental Operations (DEP OPS) includes the Offices of the Secretary & Executive Management, the Undersecretary for Management, the Chief Financial Officer, and the Chief Information Officer.
 





                                                                           DHS’ Conference Spending Practices and Oversight 


                                                                                                        Page 65 

Appendix F
FY 2007 Conferences
Appendix D: FY 2007 Conferences




Due to its size, the FY 2007 conference list is provided in a separate attachment to this
report. Attachment 1: FY 2007 Conferences as Reported by DHS Components lists the
conferences either held or attended by DHS and its components in FY 2007.

The conferences are presented in three sections. The first section lists the conferences
whose information appears complete and non-conflicting. The second section lists
conferences with complete information, but whose sponsorship details appear to be
conflicting. The third section lists all conferences submitted with incomplete
information.

As DHS does not have a uniform reporting system to capture conference information,
DHS’ OCFO compiled this conference information, of varying completeness and
consistency, from components for FY 2007. OCFO has verified the information for
many of these conferences. However, other submissions remain unverified; these are
marked with an asterisk (*).




                                  DHS’ Conference Spending Practices and Oversight 


                                                      Page 66 

Appendix G
Major Contributors to this Report
Appendix E: Major Contributors to this Report




                                                Marcia Moxey Hodges, Chief Inspector, Department of Homeland
                                                Security, Office of Inspector General, Office of Inspections

                                                Nikole Smith, Senior Inspector Department of Homeland Security,
                                                Office of Inspector General, Office of Inspections

                                                Katherine Roberts, Inspector, Department of Homeland Security,
                                                Office of Inspector General, Office of Inspections

                                                Kimberley Lake, Inspector, Department of Homeland Security,
                                                Office of Inspector General, Office of Inspections




                                                 DHS’ Conference Spending Practices and Oversight

                                                                     Page 67
Appendix H
Report Distribution
Appendix F: Report Distribution




                                  Department of Homeland Security

                                  Secretary
                                  Deputy Secretary
                                  Chief of Staff for Policy
                                  Chief of Staff for Operations
                                  Deputy Chiefs of Staff
                                  General Counsel
                                  Executive Secretariat
                                  Under Secretary for Management
                                  Assistant Secretary for Office of Policy
                                  Assistant Secretary for Office of Public Affairs
                                  Assistant Secretary for Office of Legislative Affairs
                                  Director, GAO/OIG Liaison Office
                                  Directorate for Management Audit Liaison
                                  DEP OPS Audit Liaison
                                  USCG Audit Liaison
                                  FEMA Audit Liaison
                                  ICE Audit Liaison
                                  S&T Audit Liaison

                                  Office of Management and Budget

                                  Chief, Homeland Security Branch
                                  DHS OIG Budget Examiner

                                  Congress

                                  Congressional Oversight and Appropriations Committees, as
                                  appropriate




                                   DHS’ Conference Spending Practices and Oversight 


                                                       Page 68 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
